THE DEPARTMENT OF JUSTICE’S
 GRANT CLOSEOUT PROCESS
      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 07-05
          December 2006
                     THE DEPARTMENT OF JUSTICE’S
                       GRANT CLOSEOUT PROCESS

                             EXECUTIVE SUMMARY


       A strategic objective of the Department of Justice (DOJ) is to improve
the crime fighting and criminal justice administration capabilities of state,
local, and tribal governments.1 While the federal government continues to
play an important role in crime-fighting, much of the responsibility for crime
control and prevention rests with state, local, and tribal governments. To
this end, DOJ seeks to provide support to state, local, and tribal
governments to develop their capacity to prevent and control crime and
administer justice fairly and effectively through various grant, training,
technical assistance, and research programs.

       Within DOJ, the Office of Community Oriented Policing Services
(COPS), Office of Justice Programs (OJP), and Office on Violence Against
Women (OVW) are the primary agencies responsible for providing criminal
justice grant funding to state, local, and tribal governments. From October
1, 1999, through March 31, 2006, DOJ awarded 49,151 grants with funds
totaling $23.65 billion. The details of the grants awarded by COPS, OJP, and
OVW are shown in Table 1.

                  TABLE 1. DOJ GRANTS AWARDED
                           OCTOBER 1, 1999, THROUGH
                           MARCH 31, 2006 (Dollars in Billions)
                     DOJ AWARDING                         GRANT FUNDING
                        AGENCY          NO. OF GRANTS       AWARDED
                         COPS               9,700            $ 3.20
                          OJP              36,688             18.63
                         OVW                2,763               1.82
                         TOTAL            49,151             $23.65
                  Source: COPS, OJP, and OVW lists of grants awarded

       Grant monitoring is a critical management tool to determine whether
grantees have adequately implemented the grant program, achieved the
grant objectives, and properly expended grant funds. An important aspect
of grant monitoring and administration is timely and proper grant closeout
because it is the final point of accountability for the grantee. Timely grant
closeout is an essential program and financial management practice because
it can identify grantees that have failed to comply with grant requirements,

      1
          Department of Justice Strategic Plan, Fiscal Years 2003 - 2008.
as well as identify excess and unallowable costs charged to the grant or
unused funds that can be deobligated and used for other grants.

Federal Regulations Regarding Grant Closeout

      According to federal regulations, grants should be closed out when the
grant has expired (reached the end date) and all open administrative,
compliance, legal, and audit issues have been resolved. During the period
covered by our audit, OJP and OVW policy required grants to be closed
within 6 months after the grant end date. COPS did not have a specific
timeframe in which expired grants should be closed. However, in our
judgment, 6 months after the grant end date is a reasonable timeframe for
closing out expired grants; therefore, we used the 6-month timeframe in
analyzing all grants, including COPS grants.

       Additionally, federal regulations require that:

   •   Grantees submit, within 90 calendar days after the date of completion
       of the grant, all financial, performance, and other reports as required
       by the terms and conditions of the grant.2

   •   Grantees liquidate all obligations incurred under the grant and request
       the final reimbursement (draw down) not later than 90 calendar days
       after the funding period or the date of completion as specified in the
       terms and conditions of the grant, unless the federal awarding agency
       authorizes an extension.

   •   The awarding agency will, within 90 days after the receipt of the final
       financial report and draw down, make upward and downward
       adjustments to the allowable costs.

   •   The grant recipient promptly refunds any balances of unobligated cash
       that the federal awarding agency has advanced or paid and that is not
       authorized to be retained by the recipient for use in other projects.

   •   Financial records, supporting documents, statistical records, and all
       other records pertinent to a grant must be retained for a period of
       3 years from the date of submission of the final financial report.




       2
        According to 28 C.F.R. §66.50 and 28 C.F.R. §70.71, the federal awarding agency
may approve extensions when requested by the recipient.



                                         - ii -
Background

      For the past 6 years, grant management has been identified by the
Office of the Inspector General (OIG) as one of DOJ’s top 10 management
and performance challenges. Specifically, the OIG has reported that grant
management continues to be a challenge for the following reasons:

  •   OIG reviews continue to find that many grantees do not submit
      required financial and progress reports or do not submit them timely;

  •   Numerous deficiencies continue to be found in DOJ’s monitoring of
      grantee activities;

  •   OIG audits found that grant funds were not regularly awarded in a
      timely manner and that grantees were slow to spend available monies;
      and

  •   More than 375 OIG audits of grants have resulted in significant
      dollar-related findings.

       In March 2005, the OIG issued an audit report on the Administration of
Department of Justice Grants Awarded to Native American and Alaska Native
Tribal Governments (Report No. 05-18) that included an evaluation of the
effectiveness of the COPS, OJP, and OVW closeout processes for
tribal-specific grant programs. This audit revealed that:

  •   Only 20 percent of the expired grants had been closed;

  •   Only 21 percent of the closed grants were closed in a timely manner,
      within 6 months after the grant end date;

  •   Despite the fact that financial guidelines require that grant funds must
      be drawn down within 90 days after the end of the grant period,
      grantees were allowed to draw down grant funds more than 90 days
      after the grant end date; and

  •   Unused grant funds for expired grants, which should have reverted
      back to the granting agency pursuant to financial guidelines, had not
      been deobligated.

    The OIG has issued several other reviews of COPS and OJP’s grant
management that describe concerns related to grant closeout. Specifically:

  •   U.S. Department of Justice Annual Financial Statement, Fiscal Year


                                    - iii -
       2005, Audit Report No. 06-17, March 2006, found that OJP program
       managers were not consistently closing out grants in accordance with
       existing policy or adequately documenting a justification for the delay.
       The report also found insufficient communication between the OJP
       program offices and the OJP Office of the Comptroller (OC) to ensure
       that once grants are closed remaining funds are deobligated in a
       timely manner. In addition, the OC did not adequately work with
       grantees to ensure that all financial criteria were met; as a result, the
       OC was not able to deobligate all remaining funds as required.3

   •   Office of Justice Programs Technical Assistance and Training Program,
       Audit Report No. 04-40, September 2004, found that OJP grant
       managers did not ensure that required financial and progress reports
       were submitted timely and accurately, and other monitoring and
       closeout requirements were not being adhered to.

   •   Streamlining of Administrative Activities and Federal Financial
       Assistance Functions in the Office of Justice Programs and the Office of
       Community Oriented Policing Services, Audit Report No. 03-27,
       August 2003, found that OJP did not maintain in its Grant Management
       System information related to grant monitoring and closeout after the
       grant was awarded.

   •   Management and Administration of the Community Policing Services
       Grant Program, Audit Report No. 99-21, July 1999, found that COPS
       had not deobligated remaining funds for 127 of 500 expired grants
       totaling over $15 million. Moreover, the remaining funds for
       373 grants that were deobligated were not done so in a timely
       manner.

     In sum, prior audit reports identified significant and continuing
concerns related to grant closeout within DOJ.

Audit Approach

      Based on the frequency and magnitude of the findings related to grant
closeout in the previous reports, and the fact that for the past 6 years grant
management has been identified by the OIG as one of DOJ’s top
10 management and performance challenges, we conducted an audit of the

       3
        These findings were also identified in U.S. Department of Justice Annual Financial
Statement, Fiscal Year 2003 as Restated, Audit Report No. 05-36, September 2005; and
U.S. Department of Justice Annual Financial Statement, Fiscal Year 2004 as Restated, Audit
Report No. 05-38, September 2005.



                                          - iv -
COPS, OJP, and OVW closeout processes to determine whether their grant
closeout policies and procedures are adequate to ensure that:

   •   Expired grants are closed in a timely manner;

   •   Grant funds are drawn down in accordance with federal regulations,
       DOJ policy, and the terms and conditions of the grant; and

   •   Unused grant funds are deobligated prior to closeout.

       Our review included 60,933 expired COPS, OJP, and OVW grants
totaling $25.02 billion. These grants consisted of 44,197 grants totaling
$17.61 billion that were closed from October 1997 through December 2005,
and 16,736 expired grants totaling $7.41 billion that had not been closed as
of December 2005. The details of our universe related to COPS, OJP, and
OVW is shown in Table 1.

TABLE 1. EXPIRED DOJ GRANTS UNIVERSE (Dollars in Billions)
                                   COPS            OJP            OVW             TOTAL
 No. of Closed Grants             12,840          30,488           869           44,197
 No. of Expired Grants Not
                                  10,603           5,452             681         16,736
   Closed
    TOTAL NO. OF GRANTS          23,443          35,940           1,550         60,933
 Funding for Closed Grants         $2.98          $13.92           $0.71         $17.61
 Funding for Expired Grants
                                    3.49            3.31            0.60            7.40
   Not Closed
                       4
       TOTAL FUNDING               $6.47         $17.23           $1.31         $25.01
Source: COPS, OJP, and OVW lists of closed and expired grants

Summary of Findings and Recommendations

      Overall, we found that OJP, COPS, and OVW substantially failed to
ensure that grants were closed appropriately and in a timely manner. If the
grants had been closed out more timely, hundreds of millions of dollars in
questioned costs could have been used to provide the DOJ with additional
resources to fund other programs or returned to the federal government’s
general fund.

      Our audit includes findings related to our analysis of three general
areas: (1) timeliness of grant closeout, (2) drawdowns on expired grants,


       4
          Throughout this report, differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of
the individual numbers rounded.



                                           -v-
and (3) unused grant funds on expired grants. As discussed in the following
sections, we found that:

   •   COPS, OJP, and OVW failed to ensure that grants were closed in a
       timely manner. Only 13 percent of the 60,933 grants included in our
       sample were closed within 6 months of the grant end date. Further,
       we identified a backlog of 12,505 expired grants, more than 6 months
       past the grant end date that had not been closed.

   •   Forty-one percent of the expired grants that we sampled did not
       comply with grant requirements, including financial and programmatic
       reporting requirements and local matching fund requirements. Despite
       this, non-compliant grantees were awarded 129 additional grants
       totaling $106.04 million during the period of non-compliance.

   •   Despite the fact that grantees must draw down all allowable grant
       funds within 90 days after the grant end date (the 90-day liquidation
       period), grantees were allowed to draw down funds totaling
       $554.19 million after the end of the liquidation period.

   •   Based on a sample of 66 grants with drawdowns more than 90 days
       past the grant end date totaling $75.90 million, we found that the
       drawdowns included unallowable costs totaling $5.7 million and
       unsupported costs totaling $574,940. Additionally, we identified
       drawdowns totaling $13.04 million for which we were unable to
       determine if the drawdowns included unallowable or unsupported costs
       because the accounting records or supporting documentation was no
       longer available.5

   •   Unused grant funds totaling $172.28 million related to grants that
       were more than 90 days past the grant end date had not been
       deobligated and put to better use.

       The following sections describe our findings in more detail.




       5
          It should be noted that we did not question the unallowable and unsupported costs
identified during our on-site reviews. The sample of 66 grants with drawdowns totaling
$75.90 million that occurred more than 90 days past the grant end date were already
included in the question costs totaling $554.19 million that we previously identified in this
finding.



                                           - vi -
Closed Grants

       The timely closeout of expired grants has been a long-standing
problem within DOJ. Based on our review of the 44,197 grants closed by
COPS, OJP, and OVW, we found that timely grant closeout continues to be a
significant problem, as shown in Table 2.

TABLE 2. ANALYSIS OF CLOSED DOJ GRANTS
 NO. OF MONTHS TO     NO. OF COPS       NO. OF OJP   NO. OF OVW   TOTAL NO. OF
 GRANT CLOSEOUT         GRANTS            GRANTS       GRANTS       GRANTS
  6 to 12 Months           485             4,629          206        5,320
  13 to 24 Months        1,591             8,483          264       10,338
  25 to 36 Months        2,322             3,529          142        5,993
  37 to 48 Months        4,558             3,576           66        8,200
  49 to 60 Months        2,686             1,866           34        4,586
   > 60 Months           1,063             2,986           47        4,096
       TOTAL           12,705            25,069           759      38,533
Source: COPS, OJP, and OVW list of closed grants

       Specifically, this chart demonstrates that:

   •   38,533 grants (87 percent) were not closed within 6 months after the
       grant end date;

   •   22,875 grants (52 percent) were not closed until more than 2 years
       after the grant end date; and

   •   4,096 grants (9 percent) were not closed until more than 5 years after
       the grant end date.

     However, we found that COPS, OJP, and OVW have made some
improvements in the timeliness of grant closeout. Specifically:

   •   On average, the grants closed by COPS in 2003 had been expired for
       4 years before they were closed; conversely, the grants closed in
       2005 had only been expired for 2.8 years.

   •   On average, the grants closed by OJP in 2004 had been expired for
       2.6 years before they were closed; conversely the grants closed in
       2005 had only been expired for 1.5 years.

   •   On average, the grants closed by OVW in 2004 had been expired for
       2.2 years before they were closed; conversely the grants closed in
       2005 had only been expired for 1.3 years.



                                        - vii -
       Further, since 2002 it appears that grant closeout has become a higher
priority within DOJ. Of the 44,197 closed grants, we found that only
9 percent were closed between 1998 and 2001, while 91 percent were
closed between 2002 and 2005. Despite these improvements, we found that
a significant backlog of expired grants that have not been closed still exists
within COPS, OJP, and OVW.

Expired Grants That Have Not Been Closed

       Based on our review of the 16,736 expired grants that had not been
closed, we identified a significant backlog of grants more than 6 months past
their end dates, as shown in Table 3.

TABLE 3. ANALYSIS OF EXPIRED DOJ GRANTS THAT HAVE NOT BEEN
         CLOSED
 NO. OF MONTHS
   PAST GRANT       NO. OF COPS       NO. OF OJP     NO. OF OVW   TOTAL NO. OF
    END DATE          GRANTS           GRANTS          GRANTS        GRANTS
   < 6 Months           1,114           2,806             311         4,231
 6 to 12 Months           868              502            139         1,509
 13 to 24 Months        1,760              720            157         2,637
 25 to 36 Months        1,532              900              29        2,461
 37 to 48 Months        1,611              359              18        1,988
 49 to 60 Months        1,400               55              12        1,467
  > 60 Months           2,318              110              15        2,443
      TOTAL          10,603             5,452             681       16,736
Source: COPS, OJP, and OVW list of expired grants

       Specifically, this chart demonstrates that:

   •   12,505 grants (75 percent) had been expired more than 6 months but
       had not been closed;

   •   8,359 grants (50 percent) had been expired more than 2 years but
       had not been closed; and

   •   2,443 grants (15 percent) had been expired more than 5 years but
       had not been closed.

      We determined that on average: (1) the COPS grants had been
expired for more than 3.5 years without being closed, (2) the OJP grants had
been expired for more than 2 years without being closed, and (3) the OVW
grants had been expired for more than 1.5 years without being closed.




                                        - viii -
Expired Grants Backlog

      In addition to improving the timeliness of the closeout process, it is
important that DOJ eliminate the backlog of expired grants that have not
been closed to determine: (1) if grantees complied with grant requirements,
(2) grant funds were expended properly, and (3) unused funds are
deobligated. Therefore, we analyzed the backlog of expired grants that had
not been closed to determine if it was increasing or decreasing. We found
that the backlog increased slightly from FYs 2000 to 2005, but has been
declining since 2003, as shown in Chart 1.

CHART 1. ANALYSIS OF EXPIRED DOJ GRANTS BACKLOG
                     30,000




                     25,000                                        24,181

                                                                                    22,303
                                         21,614
  NUMBER OF GRANTS




                                                  19,904
                     20,000

                                                                                               16,597
                              15,005
                     15,000




                     10,000




                      5,000




                        -
                                FY2000   FY2001   FY2002          FY2003          FY2004     FY2005

                                                  Backlog of Expired DOJ Grants


Source: OIG analysis of expired COPS, OJP, and OVW grants as of FY 2005 and
        grants awarded between FYs 2000 and 2005

   As shown in Chart 1, the backlog of expired DOJ grants that had not been
closed increased by 1,592 grants between FYs 2000 and 2005. Specifically:

             •        The backlog of expired COPS grants increased by 2,791 grants
                      between FYs 2000 and 2005.

             •        The backlog of expired OJP grants decreased by 1,728 grants between
                      FYs 2000 and 2005.


                                                   - ix -
   •   The backlog of expired OVW grants increased by 529 grants between
       FYs 2000 and 2005.

      While the overall backlog of expired grants that have not been closed
increased between FYs 2000 and 2005, the overall backlog has decreased
since FY 2003. However, COPS, OJP, and OVW still need to make significant
improvements in their closeout processes in order to substantially eliminate
the backlog of expired grants that have not been closed.

Drawdowns on Expired Grants

       According to 28 C.F.R. § 66.23, grantees are required to liquidate all
obligations incurred under the grant award not later than 90 days after the
end of the funding period. Additionally, according to 28 C.F.R. §66.50(b),
within 90 days after the expiration of the grant, the grantee must submit the
final request for payment (drawdown).6 At the request of the grantee, the
DOJ awarding agency may extend the liquidation period. In other words,
the grantee must draw down all allowable grant funds within 90 days after
the grant end date, unless an extension is authorized. If an extension is not
authorized, any grant funds not drawn down within the 90-day liquidation
period should revert back to the DOJ awarding agency to be regranted or
returned to the general fund. During the period included in our audit, COPS,
OJP, and OVW also had requirements in their own policies that required
grantees to draw down all allowable grant funds within 90 days after the
grant end date to coincide with the grantee’s submission of its required final
financial report.7

     However, we found that the current practices of COPS, OJP, and OVW
do not conform to federal regulations and their own policies. In fact, we
found that a common practice of COPS, OJP, and OVW was to contact


       6
          28 C.F.R. § 66.50(b) requires that within 90 days after the expiration of the grant,
the grantee must submit the final request for payment, Standard Form 270 (SF 270). The
C.F.R. is outdated in that the DOJ awarding agencies no longer use the SF 270, Request for
Advance or Reimbursement. Instead, grantees request funds (drawdown) using: (1) Phone
Activated Paperless Request System (PAPRS); or (2) Letter-of-Credit Electronic Certification
System (LOCES). Generally, funds will be deposited into the grantees financial institution
within 48 hours after the drawdown request is received. In our judgment, although the DOJ
awarding agencies no longer use the SF 270 cited in 28 C.F.R. § 66.50, grantees are still
required to draw down all allowable grant funds within 90 days after the grant end date.
       7
           28 C.F.R. § 66.50 requires that within 90 days after the expiration of the grant,
the grantee must submit the final financial report. The OJP financial guide does not require
the final financial report to be submitted until 120 days after the expiration of the grant,
which contradicts the C.F.R. The OJP has recognized this problem and is planning to revise
the financial guide.



                                            -x-
 grantees and instruct them to draw down any remaining funds even though
 the 90-day liquidation period has passed. The DOJ awarding agencies spend
 a significant amount of time following up with grantees to ensure that funds
 are drawn down more than 90 days after the end date but before the grant
 is closed. This practice not only violates federal regulations, it also
 contributes to the failure to close out grants in a timely manner.

       Based on our review of 60,933 expired grants totaling $25.02 billion,
 we found that COPS, OJP, and OVW allowed grantees to draw down funds
 from 8,917 expired grants totaling $554.19 million more than 90 days past
 the grant end date. We are questioning this amount as unallowable because
 federal regulations and component policy prohibit drawdowns more than
 90 days past the grant end date. The details of our questioned costs related
 to COPS, OJP, and OVW is shown in Table 4.

TABLE 4.     DRAWDOWNS OCCURRING 90 DAYS PAST THE GRANT END
             DATE (Dollars in Millions)
                               COPS                    OJP                  OVW
                                  AMOUNT                  AMOUNT               AMOUNT
  NO. OF YEARS PAST       NO. OF   DRAWN        NO. OF     DRAWN      NO. OF   DRAWN
      END DATE            GRANTS   DOWN         GRANTS     DOWN       GRANTS    DOWN
 90 Days to 12 Months      3,133   $120.08       2,615     $189.66       302     $25.41
   13 to 24 Months           819     54.80         478       75.64        72      10.30
   25 to 36 Months           521     26.17         161       20.60        14       0.84
   37 to 48 Months           450     14.82          50        3.05        10       0.39
   49 to 60 Months           177      5.66          18        0.48         5       0.28
     > 60 Months              77      5.33          14        0.62         1       0.07
        TOTAL              5,177  $226.86        3,336   $290.06         404    $37.28
Source: COPS, OJP, and OVW list of expired grants and grant payment histories

 Impact of Drawdowns on Expired Grants

       To determine the potential impact in allowing grantees to draw down
 funds after the 90-day liquidation period, we selected a judgmental sample
 of 90 grants for which drawdowns occurred at least 1 year after the end of
 the grant liquidation period. We reviewed the most recent financial reports
 for the 90 grants in our sample and found that:

    •   Grantees reported costs for periods that occurred after the grant end
        date for 53 percent of the sample grants, indicating that over
        $6.09 million in unallowable costs may have been included in the
        drawdowns occurring after the end of the liquidation period.

    •   Expenditures reported on the financial reports provided did not support
        the total drawdowns for 9 percent of the sample grants, indicating that


                                          - xi -
      $116,950 in unsupported costs may have been included in the
      drawdowns occurring after the end of the liquidation period.

      Based on our review of the financial reports for the 90 grants in our
sample, we developed concerns that drawdowns occurring after the end of
the 90-day liquidation period included unallowable and unsupported costs.
As a result, we selected an additional sample of 66 grants with drawdowns
more than 90 days past the grant end date totaling $75.90 million. For each
grant in our sample, we conducted a limited review of expenditures at the
grantee’s location to determine whether the drawdowns included costs that
were obligated after the grant end date or unsupported costs.8

       Based on our review, we found that the drawdowns included
unallowable costs totaling $5.7 million for expenditures obligated after the
grant end date or paid after the end of the 90-day liquidation period. We
also identified unsupported drawdowns totaling $574,940. Additionally, we
identified drawdowns totaling $13.04 million for which we were unable to
determine if the drawdowns included unallowable or unsupported costs
because the accounting records or supporting documentation was no longer
available. The results of these reviews appear to confirm our initial concern
that drawdowns occurring after the grant end date are likely to include
unallowable or unsupportable costs.

Funds Remaining on Expired Grants

       As stated previously, timely closeout of grants is an essential financial
management practice to ensure that any unliquidated grant funds are
recovered and used for other programs, as permitted by statute, or returned
to the general fund. During our audit, we identified unused grant funds
totaling $163.96 million that had not been deobligated and put to better use.
These funds were related to expired grants more than 90 days past the
grant end date that had not been closed, for which the grantees had neither
requested nor received an extension of the time in which to draw down
funds. The details of the funds that should be deobligated and put to better
use are shown in Table 5.




      8
          We found that the grantees had not maintained records for 9 grants with
drawdowns totaling $36.14 million; therefore, we were unable to review the expenditures
for these grants and the results of our analysis are based on 57 grants with drawdowns
totaling $435.03 million.



                                         - xii -
TABLE 5. UNUSED GRANT FUNDS FOR EXPIRED GRANTS 90 DAYS
         PAST THE GRANT END DATE (Dollars in Millions)
                               COPS                     OJP                 OVW
                                  UNUSED                   UNUSED              UNUSED
     NO. OF YEARS         NO. OF   GRANT         NO. OF     GRANT     NO. OF   GRANT
    PAST END DATE         GRANTS  FUNDING        GRANTS    FUNDING    GRANTS  FUNDING
 90 Days to 12 Months        691    $33.18          517      $42.79      158     $9.30
   13 to 24 Months           470     25.63          164        9.16       79      2.65
   25 to 36 Months           385     11.40           81        2.25       19      0.39
   37 to 48 Months           252      7.39           30        2.92       15      0.98
   49 to 60 Months           206      5.14           26        2.41        8      0.28
     > 60 Months             201      5.85           39        1.54        9      0.69
        TOTAL              2,205   $88.59           857     $61.08       288   $14.29
Source: COPS, OJP, and OVW list of expired grants and the grant payment histories

       Additionally, we identified 309 grants reported as closed, with unused
 funds totaling $8.32 million that had not been deobligated and put to better
 use. These included 103 COPS grants with unused funds totaling
 $4.87 million, 195 OJP grants with remaining funds totaling $3.49 million,
 and 11 OVW grants with remaining funds totaling $102,595.

 Conclusion

        Grant closeout is a critical component of grant monitoring because it is
 the final point of accountability for the grantee. Timely grant closeout is an
 essential program and financial management practice to identify grantees
 that have failed to comply with grant requirements, as well to identify any
 excess funds. Our audit found that DOJ substantially failed to ensure that
 grants were closed in a timely manner.

       If grants are not closed in a timely manner, non-compliant grantees
 may not be identified until years after the grant end date. Our analysis of a
 sample of expired grants that had not been closed found that 41 percent of
 the grantees were not compliant with grant requirements, including financial
 and programmatic reporting requirements and local matching fund
 requirements. Nonetheless, these non-compliant grantees were awarded
 129 additional grants totaling $106.04 million during the period of
 non-compliance.

 Recommendations

       Our report contains 44 recommendations that focus on specific steps
 that COPS, OJP, and OVW should take to improve the grant closeout
 process. These recommendations include requiring that:




                                          - xiii -
•   Expired grants are closed within 6 months of the grant end date;

•   Timelines are established for eliminating the backlog of expired grants
    that have not been closed;

•   Grantees are prohibited from drawing down grant funds after the end
    of the 90-day liquidation period, unless an extension is requested by
    the grantee and approved by the DOJ awarding agency;

•   Questioned costs related to drawdowns after the end of the 90-day
    liquidation period are addressed; and

•   Unused grant funds for expired and closed grants are deobligated in a
    within 6 months after the grant end date and put to better use.




                                 - xiv -
                         THE DEPARTMENT OF JUSTICE’S
                          GRANT CLOSEOUT PROCESS

                                 TABLE OF CONTENTS
INTRODUCTION ................................................................................ 1

   Federal Regulations Regarding Grant Closeout .................................... 2
   DOJ Top Management Challenges...................................................... 4
   Prior Reviews Regarding Grant Closeout ............................................. 4
   Audit Objectives ............................................................................. 6

FINDINGS AND RECOMMENDATIONS................................................ 8

   I.       TIMELINESS OF GRANT CLOSEOUT ........................................... 8
         Grant Closeout Policy .................................................................. 9
         Audit Approach ........................................................................... 9
         Closed Grants........................................................................... 10
            Office of Community Oriented Policing Services......................... 10
            Office of Justice Programs ...................................................... 12
            Office on Violence Against Women........................................... 13
            Priority of Grant Closeout....................................................... 15
         Expired Grants That Have Not Been Closed................................... 16
            Office of Community Oriented Policing Services......................... 16
            Office of Justice Programs ...................................................... 17
            Office on Violence Against Women........................................... 18
         Expired Grants Backlog.............................................................. 18
         Agency Estimate of Current Status of Backlog ............................... 19
         OIG Analysis of Backlog ............................................................. 19
         Current Closeout Practices ......................................................... 23
            Office of Community Oriented Policing Services......................... 24
            Office of Justice Programs ...................................................... 26
            Office on Violence Against Women........................................... 27
         Conclusion ............................................................................... 27
         Recommendations..................................................................... 28
   II.      DRAWDOWNS ON EXPIRED GRANTS ....................................... 30
         Costs Charged After the Liquidation Period ................................... 34
       Current Drawdown Practices....................................................... 37
       Conclusion ............................................................................... 40
       Recommendations..................................................................... 41
   III.    FUNDS REMAINING ON EXPIRED GRANTS ................................ 44
       Funds Remaining on Expired Grants ............................................ 44
       Recommendations..................................................................... 46

STATEMENT ON INTERNAL CONTROLS............................................ 48

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 49

APPENDIX I - SCHEDULE OF DOLLAR-RELATED FINDINGS ............. 50

APPENDIX II - OBJECTIVES, SCOPE, AND METHODOLOGY.............. 51

APPENDIX III - GRANT CLOSEOUT FINDINGS IDENTIFIED BY
  THE OJP’S BUSINESS PROCESS IMPROVEMENT DESIGN
  GROUP........................................................................................ 55

APPENDIX IV - COPS RESPONSE TO THE DRAFT REPORT ................60

APPENDIX V- OJP RESPONSE TO THE DRAFT REPORT .....................66

APPENDIX VI - OVW RESPONSE TO THE DRAFT REPORT .................73

APPENDIX VII - ANALYSIS AND SUMMARY OF ACTIONS
  NECESSARY TO CLOSE THE REPORT ........................................... 80
                                   INTRODUCTION

       A strategic objective of the Department of Justice (DOJ) is to improve
the crime fighting and criminal justice administration capabilities of state,
local, and tribal governments.9 This objective is incorporated in the DOJ
Strategic Plan, which includes the goals, objectives, and strategies for
achieving its mission. DOJ’s strategies for achieving this objective include:

   •   providing resources to state, local, and tribal jurisdictions to enhance
       law enforcement efforts;

   •   providing direct technical support to state, local, and tribal law
       enforcement;

   •   facilitating the prosecution and adjudication of federal, state, local, and
       tribal laws;

   •   enhancing the human and technological capability of state, local, and
       tribal jurisdictions to share information and resources to combat
       crime; and

   •   providing funding, information, training, and technical assistance to
       state, local, and tribal governments to prevent juvenile delinquency
       and improve the juvenile justice system.

      While the federal government continues to play an important role in
crime-fighting, much of the responsibility for crime control and prevention
rests with state, local, and tribal governments. DOJ seeks to provide
leadership and support to these agencies to develop their capacity to
prevent and control crime and administer justice fairly and effectively
through various grant, training, technical assistance, and research
programs.

      Within DOJ, the Office of Community Oriented Policing Services
(COPS), Office of Justice Programs (OJP), and Office on Violence Against
Women (OVW) are the primary agencies responsible for providing grant
funding through an extensive, varied portfolio of criminal and juvenile justice
grant programs, training, and technical assistance. In addition to awarding
grants, COPS, OJP, and OVW are also responsible for managing and
administering the programmatic and financial aspects of the grant once it
has been accepted. From October 1, 1999, through March 31, 2006, DOJ


       9
           Department of Justice Strategic Plan, Fiscal Years 2003 - 2008.



                                            -1–
awarded 49,151 grants with funds totaling $23.65 billion. The details of the
grants awarded related to COPS, OJP, and OVW is shown in Table 1.10

                 TABLE 1. DOJ GRANTS AWARDED
                             (Dollars in Billions)
                    DOJ AWARDING                          GRANT FUNDING
                       AGENCY          NO. OF GRANTS        AWARDED
                        COPS                 9,700           $ 3.20
                         OJP               36,688             18.63
                        OVW                  2,763              1.82
                        TOTAL             49,151             $23.65
                 Source: COPS, OJP, and OVW lists of grants awarded

       Grant monitoring is a critical management tool to determine whether
grantees have implemented the program, achieved the objectives, and
properly expended funds. An important aspect of grant monitoring and
administration is timely and proper grant closeout because it is the final
point of accountability for the grantee. Timely grant closeout is an essential
program and financial management practice to identify grantees that have
failed to comply with all grant requirements, as well as any excess and
unallowable costs charged to the grant, and unused funds that should be
deobligated. Therefore, timely grant closeout is necessary to determine
whether grant programs are effectively meeting the criminal justice needs of
state, local, and tribal governments.

Federal Regulations Regarding Grant Closeout

      According to federal regulations, official closeout of a grant should
occur when the awarding agency determines that the grantee has completed
all applicable administrative actions and work required under the grant.11
Grants should be closed out when the grant has expired (reached the end
date) and all open administrative, compliance, legal, and audit issues have
been resolved. A federal awarding agency may choose to close a grant
administratively if the grantee fails to provide the required documents, is no
longer a valid operating entity, is non-responsive, or fails to cooperate.
During the period covered by our audit, OJP and OVW policy required grants
to be programmatically closed within 6 months after the grant end date.
COPS did not have a specific timeframe in which expired grants should be

       10
           This information is to provide a perspective on the number of grants and amount
of grant funding awarded by DOJ and is not our audit universe, which is discussed later in
the report.
       11
           Policy and regulations concerning the grant closeout process are contained in the
following citations: (1) Code of Federal Regulations (C.F.R.), Title 28; (2) OMB Circulars
A-102, A-110, and A-123; and (3) the COPS, OJP, and OVW policies and procedures.



                                           -2–
closed.12 However, in our judgment 6 months after the grant end date is a
reasonable timeframe for closing out expired grants; therefore, we used the
6-month timeframe in analyzing all grants, including COPS grants.

       Additionally, federal regulations require that:

   •   Grantees submit, within 90 calendar days after the date of completion
       of the grant, all financial, performance, and other reports as required
       by the terms and conditions of the grant.13

   •   Grantees liquidate all obligations incurred under the grant and request
       the final reimbursement (draw down) not later than 90 calendar days
       after the funding period or the date of completion, as specified in the
       terms and conditions of the grant, unless the federal awarding agency
       authorizes an extension.

   •   The awarding agency will, within 90 days after the receipt of the final
       financial report and draw down, make upward and downward
       adjustments to the allowable costs.

   •   The federal awarding agencies make prompt payments to a grant
       recipient for allowable reimbursable costs under the grant being closed
       out.

   •   The grant recipient promptly refund any balances of unobligated cash
       that the federal awarding agency has advanced or paid and that is not
       authorized to be retained by the recipient for use in other projects.14




       12
           On March 31, 2005, COPS issued a memorandum entitled Expired Grant Policy
and Procedures. The purpose of this memorandum was to set forth policy, provide
procedural guidance, and delineate responsibilities across the agency for addressing COPS
grants prior to and following expiration. However, this policy did not express a specific
timeframe in which expired grants should be closed.
       13
         According to 28 C.F.R. §66.50 and 28 C.F.R. §70.71, the federal awarding agency
may approve extensions when requested by the recipient.
       14
            OMB Circular A-129 governs unreturned amounts that become delinquent debts.



                                          -3–
   •   Financial records, supporting documents, statistical records, and all
       other records pertinent to a grant must be retained for a period of
       3 years from the date of submission of the final financial report.15

DOJ Top Management Challenges

      For the past 6 years, grant management has been identified by the
Office of the Inspector General (OIG) as one of DOJ’s top 10 management
and performance challenges.16 Specifically, the OIG has reported that grant
management continues to be a challenge for the following reasons:

   •   OIG reviews continue to find that many grantees do not submit
       financial and progress reports;

   •   Numerous deficiencies continue to be found in monitoring of grantee
       activities;

   •   Audits found that grant funds were not regularly awarded in a timely
       manner and grantees were slow to spend available monies; and

   •   More than 375 OIG audits of grants have resulted in significant
       dollar-related findings.

Prior Reviews Regarding Grant Closeout

       In March 2005, the OIG issued an audit report on the Administration of
Department of Justice Grants Awarded to Native American and Alaska Native
Tribal Governments, Report No. 05-18, that included an evaluation of the
effectiveness of the COPS, OJP, and OVW closeout processes for
tribal-specific grant programs. This audit revealed that:

       15
            According to 28 C.F.R. §66.42 and 28 C.F.R. §70.53, the following are exceptions
to the record retention and access requirements: (1) if any litigation, claim, or audit is
started before the expiration of the 3-year period, the records must be retained until all
litigation, claims, or audit findings involving the records have been resolved and final action
taken; (2) records for real property and equipment acquired with federal funds must be
retained for 3 years after final disposition; (3) when records are transferred to or
maintained by the Department, the 3-year retention requirement is not applicable to the
recipient; (4) if the indirect cost proposal was submitted for negotiation then the 3-year
retention period for its supporting records starts on the date of the submission; (5) if the
indirect cost proposal was not submitted for negotiation then the 3-year retention period for
the proposal, plan, or other computation and its supporting records starts at the end of the
fiscal year (or other accounting period) covered by the proposal.
       16
           Since 1998, the OIG has created a list of the top management challenges facing
DOJ. Initially, the report was created in response to congressional requests. By statute this
list is now required to be included in DOJ’s annual Performance and Accountability Report.



                                            -4–
   •   Only 21 percent of the closed grants were closed in a timely manner,
       within 6 months after the grant end date;

   •   Despite the fact that financial guidelines require that grant funds must
       be drawn down within 90 days after the end of the grant period,
       grantees were allowed to draw down grant funds more than 90 days
       after the grant end date; and

   •   Unused grant funds for expired grants, which should have reverted
       back to the granting agency pursuant to financial guidelines, had not
       been deobligated.

       The OIG has issued several other reviews of COPS and OJP’s grant
management that include concerns related to grant closeout that are also
identified in this audit. Specifically:

   •   U.S. Department of Justice Annual Financial Statement, Fiscal Year
       2005, Audit Report No. 06-17, March 2006, found that OJP program
       managers were not consistently closing out grants in accordance with
       existing policy or adequately documenting a justification for the delay.
       The report also found insufficient communication between the OJP
       program offices and the OJP Office of the Comptroller (OC) to ensure
       that once grants are closed remaining funds are deobligated in a
       timely manner. In addition, the OC did not adequately work with
       grantees to ensure that all financial criteria were met; as a result, the
       OC was not able to deobligate all remaining funds as required.17

   •   Office of Justice Programs Technical Assistance and Training Program,
       Audit Report No. 04-40, September 2004, found that OJP grant
       managers did not ensure that required financial and progress reports
       were submitted timely and accurately, and other monitoring and
       closeout requirements were not being adhered to.

   •   Streamlining of Administrative Activities and Federal Financial
       Assistance Functions in the Office of Justice Programs and the Office of
       Community Oriented Policing Services, Audit Report No. 03-27,
       August 2003, found that OJP did not maintain in its Grant Management
       System information related to grant monitoring and closeout after the
       grant was awarded.

       17
         These findings were also identified in U.S. Department of Justice Annual Financial
Statement, Fiscal Year 2003 as Restated, Audit Report No. 05-36, September 2005; and
U.S. Department of Justice Annual Financial Statement, Fiscal Year 2004 as Restated, Audit
Report No. 05-38, September 2005.



                                           -5–
   •   Management and Administration of the Community Policing Services
       Grant Program, Audit Report No. 99-21, July 1999, found that COPS
       had not deobligated remaining funds for 127 of 500 expired grants
       totaling over $15 million. Moreover, the remaining funds for
       373 grants that were deobligated were not done so in a timely
       manner.

       Further, the OIG has also conducted audits of individual grants
awarded to state, local, and tribal governments that identified weaknesses
related to the grant closeout processes followed by COPS and OJP that were
similar to those concerns reported in this audit. Specifically, the OIG
conducted 22 COPS audits of grants totaling $102.49 million and 12 OJP
audits of grants totaling $24.44 million. Based on the results of the
individual grant audits, we identified:

   •   two audits with drawdowns after the expiration of the grant totaling
       over $307,912; and

   •   27 audits with funds remaining after the grant had expired totaling
       $6.24 million.

       Finally, the Government Accountability Office (GAO) has also
conducted reviews of OJP’s grant management that included activities
related to grant closeout, which addressed concerns similar to those
identified in our audit. Specifically:

   •   GAO Report No. GAO-02-25, Justice Discretionary Grants: Byrne
       Program and Violence Against Women Office Grant Monitoring Should
       Be Better Documented, November 2001, found that grant files did not
       contain required closeout materials.

   •   GAO Report No. GAO-02-65, Juvenile Justice: Better Documentation
       of Discretionary Grant Monitoring is Needed, October 2001, found that
       various closeout materials were missing from the grant files.

     In sum, prior audit reports identified significant and continuing
concerns related to grant closeout within DOJ.

Audit Objectives

      Based on the frequency and magnitude of the findings related to grant
closeout in the previous reports, and the fact that for the past 6 years grant
management has been identified by the OIG as one of DOJ’s top
10 management and performance challenges, we conducted an audit of the


                                     -6–
COPS, OJP, and OVW closeout processes to determine whether their grant
closeout policies and procedures are adequate to ensure that:

  •   Expired grants are closed in a timely manner;

  •   Grant funds are drawn down in accordance with federal regulations,
      DOJ policy, and the terms and conditions of the grant; and

  •   Unused grant funds are deobligated prior to closeout.




                                    -7–
                 FINDINGS AND RECOMMENDATIONS


I.    TIMELINESS OF GRANT CLOSEOUT

      DOJ has substantially failed to ensure that grants were closed in
      a timely manner, within 6 months after the grant end date as
      required by federal regulation and agency policy. We reviewed
      44,197 closed grants totaling $17.61 billion, of which only
      13 percent were closed within 6 months after the grant end
      date. We also identified a backlog of 12,505 expired grants
      more than 6 months past the grant end date that had not been
      closed, of which 67 percent had been expired for more than
      2 years. Grant closeout is the final point of accountability. If
      grants are not closed in a timely manner, non-compliant
      grantees may not be identified until years after the grant end
      date. Our review of 37 non-compliant grantees revealed that
      the grantees were awarded 129 additional grants, totaling
      $106.04 million, during the period of non-compliance.


       Timely grant closeout is an essential program management practice to
identify grantees that have failed to comply with all grant requirements, and
provide assistance to grantees prior to awarding subsequent grants.
Further, timely grant closeout is also an essential financial management
practice to identify any excess and unallowable funds that the awarding
agency must ensure are returned by the grantee. Timely grant closeout also
ensures that any unused funds are deobligated and thereby available to
provide DOJ with additional resources needed to fund other programs, or
returned to the federal government’s general fund. 18

      As part of the closeout process, the awarding agencies are required to
ensure that grantees have complied with the programmatic and financial
requirements of the grant. If it is determined during the grant closeout
process that a grantee has failed to comply with all programmatic and
financial requirements of the grant, it is the responsibility of the awarding
agencies to provide timely assistance to the grantee to ensure grant
requirements are met.

      18
          The federal government’s general fund records all revenues and offsetting
receipts not earmarked by law for a specific purpose and all spending financed by those
revenues and receipts. The legislation authorizing the appropriation for grant programs
generally specifies whether or not unused grant funds can be regranted or must be returned
to the federal government’s general fund.



                                          -8–
      Additionally, timely closeout is important because, according to federal
regulations, grantees are only required to maintain financial records,
supporting documents, statistical records, and all other records pertinent to
the grant for a period of 3 years from the date that the final financial report
was submitted. If grants are not closed in a timely manner, it may be years
before the DOJ awarding agency identifies grantees who have failed to
comply with programmatic and financial grant requirements at which time
the grantee may no longer be required to maintain the records necessary to
resolve any compliance issues. An awarding agency can close a grant
administratively if the grantee fails to provide the required documents, is no
longer a valid operating entity, is non-responsive, or fails to cooperate.

Grant Closeout Policy

       OJP and OVW policy require that grants be closed within 6 months
after the grant end date. According to the COPS Closeout Policy and
Procedures Manual, dated August 31, 2004, absent an authorized no-cost
extension of time, timely and accurate closing of grants should begin
following the end date and within a reasonable amount of time as
determined by COPS. Since COPS policy does not have a specific timeframe
in which expired grants should be closed, we also applied the 6-month
timeframe in our analysis of COPS grants.

Audit Approach

       As stated in the Introduction of this report, the timely closeout of
expired grants has been a long-standing problem within DOJ. As a result, to
determine whether DOJ is closing expired grants in a timely manner, we
requested a list of all expired grants that had not been closed from COPS,
OJP, and OVW, as well as, a list of all grants closed during FYs 1999 through
2005. Our review included 60,933 expired COPS, OJP, and OVW grants
totaling $25.02 billion. These grants consisted of 44,197 grants totaling
$17.61 billion that were closed during October 1997 through
December 2005, and 16,736 expired grants totaling $7.41 billion that had
not been closed as of December 2005. The details of our universe related to
COPS, OJP, and OVW is shown in Table 2.




                                     -9–
TABLE 2. EXPIRED DOJ GRANTS UNIVERSE (Dollars in Billions)
                                   COPS            OJP             OVW             TOTAL
 No. of Closed Grants             12,840          30,488            869           44,197
 No. of Expired Grants Not
                                  10,603             5,452           681          16,736
   Closed
    TOTAL NO. OF GRANTS          23,443          35,940            1,550         60,933
 Funding for Closed Grants          $2.98         $13.92           $0.71          $17.61
 Funding for Expired Grants
                                     3.49             3.31          0.60            7.40
   Not Closed
                       19
       TOTAL FUNDING               $6.47         $17.23            $1.31         $25.01
Source: COPS, OJP, and OVW lists of closed and expired grants

      For each grant in our universe, we identified the grants that had been
closed. For closed grants, we reviewed the closeout date to determine
whether the grant was closed within 6 months of the grant expiration. Our
analysis of the timeliness of COPS, OJP, and OVW grant closeout processes
follows.

Closed Grants

     Based on our review of the 44,197 closed grants totaling
$17.61 billion, we found that:

   •   only 5,664 grants (13 percent) were closed in a timely manner, within
       6 months after the grant end date,

   •   22,875 grants (52 percent) were not closed until more than 2 years
       after the grant end date, and

   •   4,096 grants (9 percent) were not closed until more than 5 years after
       the grant end date.

      The following sections include the results of our analysis of the closed
grants as it pertains to COPS, OJP, and OVW.

Office of Community Oriented Policing Services

      Our audit included 12,840 closed COPS grants totaling $2.98 billion.
We found that only 135 grants (1 percent) were closed within 6 months after
the grant end date. As shown in Table 3, COPS failed to close 12,705 grants
(99 percent) within 6 months after the grant end date.
       19
           Throughout this report, differences in the total amounts are due to rounding, in
that the sum of individual numbers reported prior to rounding may differ from the sum of
the individual numbers rounded.



                                            - 10 –
         TABLE 3. ANALYSIS OF CLOSED COPS GRANTS
               NO. OF MONTHS TO                            PERCENT OF ALL
               GRANT CLOSEOUT            NO. OF GRANTS       CLOSEOUTS
                  < 6 Months                    135             1%
                6 to 12 Months                  485             4%
                13 to 24 Months               1,591            12%
                25 to 36 Months               2,322            18%
                37 to 48 Months               4,558            36%
                49 to 60 Months               2,686            21%
                 > 60 Months                  1,063             8%
                     TOTAL                 12,840            100%
         Source: COPS list of closed grants

      We also found that 10,629 COPS grants (83 percent) were not closed
until more than 2 years after the grant end date and 1,063 COPS grants
(8 percent) were not closed until more than 5 years after the grant end
date. We determined that on average, these grants had been expired for
more than 3 years before they were closed out by COPS.

      As shown in Table 4, we also analyzed the closed COPS grants to
determine whether there has been any improvement in the timeliness of
grant closeout from 1998 through 2005.


        TABLE 4.      ANALYSIS OF CLOSED COPS GRANTS
                      BY YEAR
                                    NO. OF GRANTS        AVG. NO. OF YEARS
              YEAR CLOSED              CLOSED             PAST END DATE
                 1998                        3                 0.8 Years
                 1999                      255                 1.1 Years
                 2000                       46                 2.2 Years
                 2001                      506                 1.7 Years
                 2002                    1,623                 3.7 Years
                 2003                    2,953                 4.0 Years
                 2004                    3,269                 3.7 Years
                 2005                    4,185                 2.8 Years
                 TOTAL                12,840
        Source: COPS list of closed grants

       As noted above, COPS has shown some improvement in the timeliness
of its grant closeout process. On average, the grants closed in 1998 had
been expired for less than 1 year before they were closed out; conversely,
the grants closed in 2003 had been expired on average for 4 years before
they were closed. Since 2003 it appears that COPS has improved the
timeliness of its grant closeout, because the grants closed in 2005 had only
been expired on average for 2.8 years, 1.2 years less than the grants closed



                                       - 11 –
in 2003. Although COPS has improved the timeliness of its grant closeout,
significant improvements are still needed to ensure that COPS grants are
closed within 6 months after the grant end date.

Office of Justice Programs

       Our audit included 30,488 closed OJP grants totaling $13.92 billion.
We found that only 5,419 grants (18 percent) were closed within 6 months
after the grant end date as required by OJP policy. As shown in Table 5, OJP
failed to close 25,069 grants (82 percent) within 6 months after the grant
end date.

         TABLE 5. ANALYSIS OF CLOSED OJP GRANTS
               NO. OF MONTHS TO                              PERCENT OF ALL
               GRANT CLOSEOUT                NO. OF GRANTS     CLOSEOUTS
                  < 6 Months                      5,419           18%
                6 to 12 Months                    4,629           15%
                13 to 24 Months                   8,483           28%
                25 to 36 Months                   3,529           12%
                37 to 48 Months                   3,576           12%
                49 to 60 Months                   1,866             6%
                 > 60 Months                      2,986           10%
                     TOTAL                      30,488           100%
         Source: OJP list of closed grants

      We also found that 11,957 OJP grants (39 percent) were not closed
until more than 2 years after the grant end date and 2,986 OJP grants
(10 percent) were not closed until more than 5 years after the grant end
date. We determined that on average, these grants had been expired for
more than 2 years before they were closed out by OJP.

      As shown in Table 6, we also analyzed the closed OJP grants to
determine whether there has been any improvement in the timeliness of
grant closeout from 1998 through 2005.




                                        - 12 –
            TABLE 6. ANALYSIS OF CLOSED OJP GRANTS BY YEAR
                                        NO. OF GRANTS       AVG. NO. OF YEARS
                 YEAR CLOSED               CLOSED            PAST END DATE
                    1998                        79                1.3 Years
                    1999                        53                1.4 Years
                    2000                     1,058                1.4 Years
                    2001                     1,936                1.2 Years
                    2002                     6,843                2.4 Years
                    2003                     3,356                2.1 Years
                    2004                     9,962                2.6 Years
                    2005                     7,002                1.5 Years
                    TOTAL                  30,28920
            Source: OJP list of closed grants

      As shown above, OJP has made some recent improvement in the
timeliness of its grant closeout. On average, the grants closed in 1998 had
been expired for 1.3 years before they were closed out; conversely, the
grants closed in 2004 had been expired on average for 2.6 years before they
were closed out. Since 2004 it appears that OJP has significantly improved
the timeliness of its grant closeout, because the grants closed in 2005 had
only been expired on average for 1.5 years, 1.1 years less than the grants
closed in 2004. Although OJP has improved the timeliness of its grant
closeout, significant improvements are still needed to ensure that OJP grants
are closed within 6 months after the grant end date.

Office on Violence Against Women

       Our audit included 869 closed OVW grants totaling $712.98 million.
We found that only 110 grants (13 percent) were closed within 6 months
after the grant end date. As shown in Table 7, OVW failed to close
759 grants (87 percent) within 6 months after the grant end date.




       20
          It should be noted that 199 of the 30,488 closed OJP grants included in our audit,
were closed prior to 1998.



                                            - 13 –
            TABLE 7. ANALYSIS OF CLOSED OVW GRANTS
              NO. OF MONTHS TO                                PERCENT OF ALL
              GRANT CLOSEOUT           NO. OF GRANTS            CLOSEOUTS
                 < 6 Months                 110                    13%
               6 to 12 Months               206                    24%
               13 to 24 Months              264                    30%
               25 to 36 Months              142                    16%
               37 to 48 Months               66                     8%
               49 to 60 Months               34                     4%
                > 60 Months                  47                     5%
                    TOTAL                   869                  100%
            Source: OVW list of closed grants

      We also found that 289 OVW grants (33 percent) were not closed until
more than 2 years after the grant end date and 47 OVW grants (5 percent)
were not closed until more than 5 years after the grant end date. We
determined that on average, these grants had been expired for more than
1.5 years before they were closed out by OVW.

      As shown in Table 8, we also analyzed the closed OVW grants to
determine whether there has been any improvement in the timeliness of the
grant closeout process from 1998 through 2005.

            TABLE 8.     ANALYSIS OF CLOSED OVW GRANTS BY YEAR
                                       NO. OF GRANTS        AVG. NO. OF YEARS
                 YEAR CLOSED              CLOSED             PAST END DATE
                    1998                      1                < 6 Months
                    1999                      0                      -
                    2000                     24                   1.1 Years
                    2001                     28                   1.7 Years
                    2002                    118                   1.8 Years
                    2003                    127                   1.7 Years
                    2004                    333                   2.2 Years
                    2005                    237                   1.3 Years
                    TOTAL                   86821
            Source: OVW list of closed grants

      As shown above, OVW has shown recent improvement in the
timeliness of its grant closeout process. The grant closed in 1998 had been
expired for less than 6 months before it was closed out; conversely, the
grants closed in 2004 had been expired on average for 2.2 years before they
were closed out. Since 2004 it appears that OVW has improved the
timeliness of its grant closeout, because the grants closed in 2005 had only


       21
           It should be noted that 1 of the 869 closed OVW grants included in our audit was
closed prior to 1998.



                                          - 14 –
been expired on average for 1.3 years, 0.9 years less than the grants closed
in 2004. Although OVW has improved the timeliness of its grant closeout,
significant improvements are still needed to ensure that OVW grants are
closed within 6 months after the grant end date.

Priority of Grant Closeout

       Although, COPS, OJP, and OVW have made improvements in the
timeliness of grant closeout, significant improvements are still needed to
ensure that grants are closed within 6 months after the grant end date.
Nonetheless, it appears that since 2002 grant closeout has become a greater
priority within DOJ. As shown in Chart 1, the number of grants closed each
year greatly increased in 2002.

CHART 1. NUMBER OF DOJ GRANTS CLOSED BETWEEN FYS 1998 AND
         2005


                            14,000

                            13,000

                            12,000
 NO. OF DOJ GRANTS CLOSED




                            11,000

                            10,000

                             9,000

                             8,000

                             7,000

                             6,000

                             5,000

                             4,000

                             3,000

                             2,000

                             1,000

                                   0
                                       1998   1999   2000      2001    2002    2003    2004    2005
                             OVW        1      0      24        28     118     127     333     237
                             OJP        79     53    1,058     1,936   6,843   3,356   9,962   7,002
                             COPS       3     255     46       506     1,623   2,953   3,269   4,185


Source: COPS, OJP, and OVW lists of closed grants between 1998 and 2005

                            Specifically, we found that:

                    •       of the 12,840 COPS grants that had been closed, only 810 grants
                            (6 percent) were closed between 1998 and 2001, while
                            12,030 (94 percent) were closed between 2002 and 2005;


                                                             - 15 –
   •   of the 30,289 OJP grants that had been closed, only 3,126 grants
       (10 percent) were closed between 1998 and 2001, while
       27,163 (90 percent) were closed between 2002 and 2005; and

   •   of the 868 OVW grants that had been closed, 53 grants (6 percent)
       were closed between 1998 and 2001, while 815 (94 percent) were
       closed between 2002 and 2005.

      Despite the fact that COPS, OJP, and OVW have made improvements
in the timeliness of grant closeout and the number of grants closed each
year, we found that a significant backlog of expired grants still exists.

Expired Grants That Have Not Been Closed

     Based on our review of the 16,736 expired DOJ grants totaling
$7.40 billion that had not been closed, we found that:

   •   12,505 grants (75 percent) were more than 6 months past the grant
       end date,

   •   8,359 grants (50 percent) were more than 2 years past the grant end
       date, and

   •   2,443 grants (15 percent) were more than 5 years past the grant end
       date.

     The following sections include the results of our analysis of the expired
COPS, OJP and OVW grants that have not been closed.

Office of Community Oriented Policing Services

      Our audit included 10,603 expired COPS grants totaling $3.49 billion
that had not been closed. As shown in Table 9, we found that COPS failed to
close a total of 9,489 grants, despite the fact that the grants were more than
6 months past the grant end date.




                                    - 16 –
            TABLE 9. EXPIRED COPS GRANTS THAT
                     HAVE NOT BEEN CLOSED
                   NO. OF MONTHS                  NO. OF GRANTS
                    PAST END DATE                  NOT CLOSED
                   6 to 12 Months                        868
                   13 to 24 Months                     1,760
                   25 to 36 Months                     1,532
                   37 to 48 Months                     1,611
                   49 to 60 Months                     1,400
                     > 60 Months                       2,318
                        TOTAL                         9,489
             Source: COPS list of closed grants

      We also found that 6,861 COPS grants (72 percent) had been expired
more than 2 years but had not been closed, and 2,318 COPS grants
(24 percent) had been expired more than 5 years but had not been closed.
We determined that on average these grants had been expired for more
than 3.5 years without being closed by COPS.

Office of Justice Programs

      Our audit included 5,452 expired OJP grants totaling $3.31 billion that
had not been closed. As shown in Table 10, we found that OJP failed to
close a total of 2,646 grants, despite the fact that the grants were more than
6 months past the grant end date.

            TABLE 10. EXPIRED OJP GRANTS THAT
                      HAVE NOT BEEN CLOSED
                   NO. OF MONTHS                  NO. OF GRANTS
                    PAST END DATE                  NOT CLOSED
                   6 to 12 Months                        502
                   13 to 24 Months                       720
                   25 to 36 Months                       900
                   37 to 48 Months                       359
                   49 to 60 Months                        55
                     > 60 Months                         110
                        TOTAL                         2,646
            Source: OJP list of closed grants

      We also found that 1,424 OJP grants (54 percent) had been expired
more than 2 years but had not been closed, and 110 OJP grants (4 percent)
had been expired more than 5 years but had not been closed. We
determined that on average these grants had been expired for more than
2 years without being closed by OJP.




                                        - 17 –
Office on Violence Against Women

      Our audit included 681 expired OVW grants totaling $603.51 million
that had not been closed. As shown in Table 11, we found that OVW failed
to close a total of 370 grants, despite the fact that the grants were more
than 6 months past the grant end date.

           TABLE 11. EXPIRED OVW GRANTS THAT
                     HAVE NOT BEEN CLOSED
                  NO. OF MONTHS                NO. OF GRANTS
                   PAST END DATE                NOT CLOSED
                  6 to 12 Months                    139
                  13 to 24 Months                   157
                  25 to 36 Months                    29
                  37 to 48 Months                    18
                  49 to 60 Months                    12
                    > 60 Months                      15
                       TOTAL                        370
           Source: OVW list of closed grants

      We also found that 74 OVW grants (20 percent) had been expired
more than 2 years but had not been closed, and 15 OVW grants (4 percent)
had been expired more than 5 years but had not been closed. We
determined that on average these grants had been expired for more than
1.5 years without being closed by OVW.

Expired Grants Backlog

      To determine the reasons for the delay in the closeout process, we
selected a judgmental sample of 30 COPS, OJP, and OVW grants (for a total
sample of 90 grants) that had been expired for more than 6 months but had
not been closed. If the delay in the closeout process was due to grantee
non-compliance, such as not submitting final financial and progress reports,
we attempted to determine whether COPS, OJP, and OVW had awarded
additional grants to the grantee during the period of non-compliance. Based
on our review, we found the following:

  •   COPS indicated that for 20 of the 30 (67 percent) expired grants
      sampled, the grantee was not compliant with grant requirements.
      However, between FY 2000 and FY 2006, 10 of the 20 grantees
      (50 percent) were awarded 39 additional grants totaling
      $18,786,104 during the period of non-compliance.

  •   OJP indicated that for 15 of the 30 expired grants sampled, which were
      awarded to 14 grantees, the grantee was not compliant with grant


                                      - 18 –
      requirements. However, between FY 2000 and FY 2006, the 14
      grantees (100 percent) were awarded 83 additional grants totaling
      $71,781,836 during the period of non-compliance.

  •   OVW indicated that for 2 of the 30 (7 percent) expired grants sampled
      the grantee was not compliant with grant requirements. However,
      between FY 2000 and FY 2006, 1 of the 2 grantees was awarded
      7 additional grants totaling $15,468,237 during the period of
      non-compliance.

      Since COPS, OJP, and OVW failed to close out grants in a timely
manner, it took on average between 1.8 and 3.3 years before the DOJ
awarding agency determined whether the grantee complied with all
necessary programmatic and financial requirements of the grant. As a
result, non-compliant grantees included in our sample were awarded a total
of 129 additional grants totaling $106.04 million.

Agency Estimate of Current Status of Backlog

      Since our review of expired grants was as of December 2005, we met
with representatives from COPS, OJP, and OVW to determine the current
status of the expired grants backlog, and estimated timeframes for
eliminating the backlog. Based on our meetings with the DOJ awarding
agency officials, we determined the following:

  •   COPS estimates that it currently has a backlog of 5,200 expired grants
      that have not been closed, which they hope to eliminate by the end of
      calendar year (CY) 2007.

  •   OJP estimates that it currently has a backlog of 2,700 expired grants
      that have not been closed, which they hope to eliminate by the end of
      CY 2006.

  •   OVW estimates that it currently has a backlog of 484 expired grants
      that have not been closed, which they hope to eliminate by the end of
      CY 2006.

OIG Analysis of Backlog

      We analyzed the backlog of expired grants that had not been closed to
determine if it was increasing or decreasing. As shown in Chart 2, the
backlog of expired DOJ grants that had not been closed increased by
1,592 grants between FYs 2000 and 2005.



                                   - 19 –
CHART 2. ANALYSIS OF EXPIRED DOJ GRANTS BACKLOG
                    30,000




                    25,000                                        24,181

                                                                                   22,303
                                        21,614
 NUMBER OF GRANTS




                                                 19,904
                    20,000

                                                                                              16,597
                             15,005
                    15,000




                    10,000




                     5,000




                       -
                               FY2000   FY2001   FY2002          FY2003          FY2004     FY2005

                                                 Backlog of Expired DOJ Grants


Source: OIG analysis of expired COPS, OJP, and OVW grants as of FY 2005 and
        grants awarded between FYs 2000 and 2005

      However, the overall backlog of expired grants that have not been
closed has decreased by 7,584 grants between FYs 2003 and 2005.




                                                 - 20 –
     As shown in Chart 3, the backlog of expired COPS grants that had not
been closed increased by 2,791 grants between FYs 2000 and 2005.

CHART 3. ANALYSIS OF EXPIRED COPS GRANTS BACKLOG

                     16,000


                     14,000
                                                                      12,699
                                                   12,215                          12,385
  NUMBER OF GRANTS




                     12,000

                                       10,016
                                                                                              9,689
                     10,000


                      8,000   6,898


                      6,000


                      4,000


                      2,000


                         0
                              FY2000     FY2001       FY2002          FY2003       FY2004   FY2005

                                                  Backlog of Expired COPS Grants


Source: OIG analysis of expired COPS grants as of FY 2005 and grants awarded between
        FYs 2000 and 2005

      However, the COPS backlog of expired grants that have not been
closed has decreased by 3,010 grants between FYs 2003 and 2005.




                                                        - 21 –
     As shown in Chart 4, the backlog of expired OJP grants that had not
been closed decreased by 1,728 grants between FYs 2000 and 2005.

CHART 4. ANALYSIS OF EXPIRED OJP GRANTS BACKLOG

                    16,000



                    14,000
 NUMBER OF GRANTS




                    12,000             11,356
                                                                 11,049

                                                                                 9,566
                    10,000

                             7,965
                                                  7,350
                     8,000

                                                                                           6,237
                     6,000



                     4,000



                     2,000



                        0
                              FY2000   FY2001    FY2002           FY2003        FY2004   FY2005

                                                Backlog of Expired OJP Grants



Source: OIG analysis of expired OJP grants as of FY 2005 and grants awarded between
        FYs 2000 and 2005

     However, the OJP backlog of expired grants that have not been closed
has decreased by 4,812 grants between FYs 2003 and 2005.




                                                 - 22 –
     As shown in Chart 5, the backlog of expired OVW grants that had not
been closed increased by 529 grants between FYs 2000 and 2005.

CHART 5. ANALYSIS OF EXPIRED OVW GRANTS BACKLOG
                    800



                    700                                                               671



                    600
 NUMBER OF GRANTS




                    500
                                                                  433

                    400                                                     352
                                                  339


                    300
                                   242


                    200
                           142


                    100



                     0
                          FY2000   FY2001         FY2002        FY2003      FY2004   FY2005


                                            Backlog of Expired OVW Grants



Source: OIG analysis of expired OVW grants as of FY 2005 and grants awarded between
        FYs 2000 and 2005

      Additionally, the OVW backlog of expired grants that have not been
closed has increased by 238 grants between FYs 2003 and 2005.

      While the overall backlog of expired grants that have not been closed
increased between FYs 2000 and 2005, the COPS and OJP backlog has
decrease since FY 2003. On the other hand, the OVW backlog continues to
increase.

Current Closeout Practices

      COPS, OJP, and OVW have taken several actions to improve the
closeout process and improve the timeliness of grant closeout.




                                                   - 23 –
Office of Community Oriented Policing Services

      According to COPS, prior to 1998 only a small number of grants were
closed. As a result, in 1998 COPS established the Grant Closeout Team
within its Grants Administration Division. In 2000, the first formal COPS
Closeout Policy and Procedures Manual was developed by the Grant Closeout
Team, which was updated in 2002 and 2004. The Closeout Team currently
consists of 10 federal employees and 5 contract employees. Only two of the
federal employees work exclusively on closeouts; all others serve on a
part-time basis, as they are also responsible for team and state grant
advising responsibilities. However, according to COPS, there have been
occasions when nearly every member of the COPS Grants Administration
Division has been assigned to assist with closeout-related work.

      Additionally, COPS created an Expired Grants Project in November
2004 in response to a reportable condition identified during its 2004 financial
statement audit to financially close out as many grants as possible. The
Expired Grants Project included 1,021 grants of which 425 (42 percent) had
been closed at the time of our review.

       COPS also developed new closeout policies and procedures to ensure
that its grants are closed in accordance with federal guidelines.22 In
March 2005, COPS implemented the following expired grant policy and
procedures:

   •   COPS Management System database queries are run on a quarterly
       basis to determine which grants have expired and are ready for
       closeout.

   •   On a quarterly basis the COPS Finance Division also identifies which
       grants have expired and are ready for closeout through review of the
       grantees’ final financial report. An expired grants list is then
       developed and forwarded to the COPS Grants Administration Division
       for final determination.

   •   As the final step in the closeout process, the COPS Finance Division
       completes a financial review of each grant. The purpose of the


       22
            COPS policy and procedures concerning its grant closeout process are contained
in the following: (1) COPS Expired Grants Policy and Procedures, dated March 31, 2005,
(2) COPS Closeout Policy Manual, dated August 31, 2004; (3) Grant Closeout Notification
Toolkit, and (4) COPS Grant Owner’s manuals.




                                          - 24 –
      financial closeout review is to: (1) verify the approved federal share of
      costs based on the completed grant program costs; (2) account for
      non-federal share amounts; (3) determine unobligated amounts under
      the grant; and (4) determine and make payment available for
      unliquidated balances owed to the grantee. In this process, the COPS
      Finance Division ensures that the grantee has submitted a final
      financial report and that the financial records are reconciled according
      to federal guidelines.

  •   COPS Finance Division verifies and reconciles the information reported
      on the final financial report against the programmatic checklist, which
      certifies full or partial completion of the project. If necessary,
      grantees are contacted to verify financial information reported.

  •   In addition to checking the required local match of program costs, the
      final financial report is reconciled to the grant expenditures,
      disbursements, and obligations.

  •   If the COPS Finance Division’s reconciliation of the final financial report
      and payment history determines that the grantee has been underpaid
      the grantee is allowed to draw down the remaining allowable funds.
      Otherwise, the COPS Finance Division deobligates the grant’s
      unobligated balance.

  •   The COPS Finance Division also ensures that the grantee’s final
      financial report is entered into the accounting system and placed in the
      financial file.

      Although we acknowledge these efforts to improve the grant closeout
process, we have identified weaknesses in the current COPS policies and
practices. For example, COPS policy appears to be reactive rather than
proactive in that queries are run on a quarterly basis to determine which
grants have expired and are ready for closeout. As a result, grants may be
expired for up to 90 days before they are identified by COPS as ready for
closeout. In our judgment, COPS should be monitoring the grant end dates
to determine which grants will be expiring during the next quarter, rather
than waiting until after the grants have expired.

      Additionally, we noted that COPS policy does not include timeframes
for when specific actions should be completed, including a timeframe for
when grants should be closed. In our judgment, COPS policy should ensure
that grants are closed within 6 months after the grant end date, and that
specific timeframes are established for each task to ensure that grants are
closed within the 6 month period.


                                     - 25 –
Office of Justice Programs

       In September 2005, OJP issued Grant Closeout: Business
Improvement Recommendations, Final Version, based on an analysis of its
grant closeout process to determine opportunities to reduce the number of
expired grants that require closeout and improve the closeout process, which
it identified as “burdensome and problematic.”23 Specifically, in its analysis
OJP identified numerous areas of concern related to its grant closeout
process. For example, inconsistencies exist between OJP and DOJ Closeout
Guidelines. In addition to the implemented and proposed revisions to the
policies and procedures already in place regarding its grant closeout process,
the Business Improvement Recommendations report also included long-term
recommendations that OJP plans to implement in the future. See
Appendix III for a full list of the concerns and recommendations identified by
OJP related to its grant closeout process.

      In order to address some of these concerns, OJP implemented or
revised many of the policies and procedures already in place regarding its
grant closeout process. Specifically, OJP plans to make the following
changes to its Grant Managers Manual related to grant closeout:

   •   The due date for the final financial report will be changed from
       120 days to 90 days in compliance with 28 C.F.R. §66.41.

   •   The responsibility for the grant closeout process will be moved to the
       Office of the Assistant Attorney General. The Office of the Assistant
       Attorney General’s closeout responsibilities will include:
       (a) administering and enforcing uniform grant closeout policies within
       OJP, (b) resolving conflicts or disputes pertaining to the grant closeout
       process, and (c) monitoring and tracking performance of program and
       support offices related to grant closeout.

   •   The timelines for the grant closeout process will be adjusted to ensure
       that grants are closed within 6 months of the grant end date. This will
       correct the confusion related to grant closeout included in OC Policy
       Statement No. 4031.1B.

      Additionally, in April 2006, the OC reorganized in order to streamline
and standardize the closeout process. As a result of the reorganization, the
OC consolidated its five existing divisions into two new divisions, which they


       23
       Office of Justice Programs. Grant Closeout: Business Improvement
Recommendations, Final Version, September 15, 2005.



                                       - 26 –
expect will help to eliminate the “disjointed closeout processing steps of the
past.”

Office on Violence Against Women

      While OVW is a designated Office, Boards, and Divisions (OBD) within
DOJ, it receives all grant related financial services from the OC and therefore
follows the financial closeout policies and procedures established by the OC.
As a result, the policies and procedures implemented in response to the OJP
Business Improvement Recommendations report will directly impact OVW’s
closeout process. In addition, a financial analyst from the OC has been
detailed to OVW. This analyst participated in the project that resulted in the
Business Improvement Recommendations report and has worked closely
with OVW program managers on implementing the closeout policies and
procedures.

     According to an OVW official, over the past few years the closeout
process has evolved and been streamlined. This official also stated that:

   •   OVW has provided better training and has coordinated with its
       program staff responsible for grant closeout.

   •   OVW has put a great deal of emphasis on processing and monitoring of
       grant closeouts.

   •   In the past OVW did not do a very good job of monitoring grants sent
       to the OC for financial closeout. However, OVW has been better at
       tracking communications with the OC to ensure that the OC does its
       part to officially close out all grants submitted.

   •   Program assistants are focusing more closely on grant closeout and
       assisting the program managers with the closeout process.

Conclusion

      Overall, DOJ substantially failed to ensure that grants were closed in a
timely manner, within 6 months after the grant end date. Specifically:

   •   We reviewed 44,197 closed grants totaling $17.61 billion, of which
       only 13 percent were closed within 6 months after the grant end date.

   •   We identified a backlog of 12,505 expired grants more than 6 months
       past the grant end date that had not been closed, of which 67 percent
       had been expired for more than 2 years.


                                    - 27 –
     •   On average, it took between 1.8 and 3.3 years before the DOJ
         awarding agency determined that grantees had failed to comply with
         programmatic and financial requirements of the grant.

     •   Thirty-seven non-compliant grantees were awarded 129 additional
         grants totaling $106.04 million, during the period of non-compliance.

      Since 2002, grant closeout has become a greater priority within DOJ
and COPS, OJP, and OVW have recently made improvements in the
timeliness of grant closeout. However, we have identified weaknesses in the
current COPS policy. COPS policy does not include timeframes for when
specific actions should be completed, including a timeframe for when grants
should be closed.

      The timely closeout of grants is an essential financial management
practice to identify any excess and unallowable funds that should be
returned by the grantee, as well as unused funds that should be deobligated
and put to better use. The financial issues related to DOJ’s failure to close
out grants in a timely manner are detailed in Findings II and III of this
report. However, it should be noted that as a result of DOJ’s failure to close
grants timely, we identified questioned costs and funds to be put to better
use totaling over $726 million, representing funds that could have been used
to provide DOJ with additional resources needed to fund other programs or
returned to the federal government’s general fund. About 71 percent of the
dollar-related findings occurred more than 6 months after the grant end
date. Therefore, in our opinion, the majority of the dollar-related findings
would most likely not have occurred if COPS, OJP, and OVW closed grants in
a timely manner.

Recommendations

         We recommend that COPS:

1.       Revise and fully implement grant closeout policies and procedures to
         ensure that expired grants are closed within 6 months after the end
         date.

2.       Ensure that grant closeout policies and procedures include timeframes
         within which specific actions should be completed, including a
         requirement that grants must be closed within 6 months after the
         grant end date.

3.       Establish a system to track progress towards eliminating the backlog
         within the established timeframe.


                                      - 28 –
     We recommend that OJP:

4.   Fully implement the revisions to the grant closeout policies and
     procedures based on the recommendations included in the Business
     Improvement Recommendations report to ensure that expired grants
     are closed within 6 months after the end date.

5.   Establish a system to track progress towards eliminating the backlog
     within the established timeframe.

     We recommend that OVW:

6.   Revise and fully implement grant closeout policies and procedures to
     ensure that expired grants are closed within 6 months after the end
     date.

7.   Establish a system to track progress towards eliminating the backlog
     within the established timeframe.




                                  - 29 –
II.    DRAWDOWNS ON EXPIRED GRANTS

       COPS, OJP, and OVW are not ensuring that grant funds are
       drawn down within 90 days after the grant end date as required
       by federal and agency regulations. We reviewed 60,933 expired
       grants totaling $25.02 billion, and identified questioned costs
       totaling $554.19 million related to drawdowns that occurred
       more than 90 days after the grant end date. Through additional
       testing, we identified unallowable costs for expenditures
       obligated after the grant end date totaling $142.74 million and
       unsupported drawdowns totaling $46.52 million.

       As part of the closeout process COPS, OJP, and OVW review the final
financial report to determine whether: (1) drawdowns are supported by the
expenditures reported and that excess funds were not drawn down,
(2) reported expenditures exceed drawdowns indicating that the grantee
failed to draw down allowable funds within the 90-day liquidation period, and
(3) reported expenditures are less than the award amount indicating that
the remaining funds should have been deobligated and regranted or
returned to the federal government’s general fund, thus reducing the
national debt.

      Federal regulations require that grantees must draw down all allowable
grant funds within 90 days after the grant end date. According to 28 C.F.R.
§66.50(b), within 90 days after the expiration of the grant, the grantee must
submit the final request for payment (drawdown).24 At the request of the
grantee, the DOJ awarding agency may extend this period. Additionally,
unless an extension is authorized, any grant funds not drawn down within
the 90-day period should revert back to the DOJ awarding agency to be
regranted or returned to the general fund. During the period included in our
audit, COPS, OJP, and OVW had the following requirements related to grant
drawdowns.25

       24
            28 C.F.R. § 66.50(b) requires that within 90 days after the expiration of the
grant, the grantee must submit the final request for payment, Standard Form 270 (SF 270).
The C.F.R. is outdated in that the DOJ awarding agencies no longer use the SF 270, Request
for Advance or Reimbursement. Instead, grantees request funds (drawdown) using:
(1) Phone Activated Paperless Request System (PAPRS); or (2) Letter-of-Credit Electronic
Certification System (LOCES). Generally, funds will be deposited into the grantees financial
institution within 48 hours after the drawdown request is received. In our judgment,
although the DOJ awarding agencies no longer use the SF 270 cited in 28 C.F.R. § 66.50,
grantees are still required to draw down all allowable grant funds within 90 days after the
grant end date.
       25
          While OVW is a designated OBD within DOJ, it receives all grant-related financial
services from the OC and therefore requires grantees to follow the OJP Financial Guide.



                                           - 30 –
   •   COPS Grant Owner’s Manuals - Each of the COPS Grant Owner's
       Manuals requires that grant funds must be obligated before the end of
       the grant period. The manuals also require that grantees request
       reimbursement for obligated funds within 90 days after the end of the
       grant period.

   •   OJP Financial Guide – The OJP Financial Guide requires that block,
       formula, and discretionary funds that have been properly obligated by
       the end of the grant period should be liquidated (expended) within
       90 days from the end of the grant period. Any funds not liquidated at
       the end of the 90-day period will lapse and revert to the DOJ awarding
       agency, unless a grant adjustment notice extending the liquidation
       period has been approved. The OJP Financial Guide also requires
       grantees to request final payment for reimbursement of expenditures
       incurred prior to the grant expiration date in conjunction with the
       submission of the final financial report, which according to 28 C.F.R.
       §66.50(b) is due within 90 days after the grant end date.26

     Prior OIG reviews have found that DOJ failed to ensure that grantees
draw down allowable funds within the 90-day liquidation period and that any
remaining grant funds were deobligated and regranted, or returned to the
general fund in a timely manner. Based on our current review, we
determined that this continues to be a problem for COPS, OJP, and OVW.

       We found that the current practices of COPS, OJP, and OVW do not
conform to federal regulations and their own policies. In fact, we found that
a common practice of COPS, OJP, and OVW was to contact grantees and
instruct them to draw down any remaining funds even though the 90-day
liquidation period had passed. The DOJ awarding agencies spend a
significant amount of time following up with grantees to ensure that funds
are drawn down before the grant is closed. This practice not only violates
federal regulations, it is also one of the factors contributing to the failure to
close grants in a timely manner.

      Because current practices of COPS, OJP, and OVW disregard federal
regulations related to the grant liquidation period, we found that grantees
were allowed to draw down funds totaling $554,192,410 more than 90 days
past the grant end date, for which the grantee had not requested or received
       26
          28 C.F.R. §66.50(b), requires that within 90 days after the expiration or
termination of the grant, the grantee must submit all financial, performance, and other
reports required as a condition of the grant. However, the OJP Financial Guide, dated March
2005, requires the final financial report be submitted within 120 days after the grant end
date, which contradicts the federal regulations. The OJP has recognized this problem and is
planning to update the financial guide to reflect the federal regulations.



                                          - 31 –
an extension of time to draw down funds.27 We are questioning this amount
as unallowable because federal regulations and component policy prohibit
drawdowns more than 90 days past the grant end date. Additionally,
pursuant to the federal regulations, in the absence of an extension, this
funding should have reverted back to the DOJ awarding agency and been
made available for other purposes. The details of our questioned costs
related to COPS, OJP, and OVW is shown in Table 12.

TABLE 12. DRAWDOWNS OCCURRING 90 DAYS PAST THE GRANT
          END DATE (Dollars in Millions)
                                COPS                    OJP                   OVW
                                   AMOUNT                  AMOUNT               AMOUNT
    NO. OF MONTHS         NO. OF   DRAWN         NO. OF    DRAWN        NO. OF   DRAWN
     PAST END DATE        GRANTS    DOWN         GRANTS     DOWN        GRANTS   DOWN
 90 Days to 12 Months      3,133   $120.08        2,615    $189.66        302    $25.41
    13 to 24 Months          819     54.80          478      75.64         72     10.30
    25 to 36 Months          521     26.17          161      20.60         14      0.84
    37 to 48 Months          450     14.82           50       3.05         10      0.39
    49 to 60 Months          177      5.66           18       0.48          5      0.28
      > 60 Months             77      5.33           14       0.62          1      0.07
         TOTAL             5,177  $226.86        3,336    $290.06        404    $37.28
Source: COPS, OJP, and OVW list of expired grants and grant payment histories

       As shown in Table 12, we determined that:

   •   For 5,177 grants, COPS allowed grantees to make 8,796 drawdowns
       totaling $226,856,849 that were more than 90 days past the grant end
       date; as a result, we are questioning this amount. It should be noted
       that 4,343 drawdowns totaling $106,779,142 occurred more than
       1 year after the grant expired.

   •   For 3,336 grants, OJP allowed grantees to make 5,368 drawdowns
       totaling $290,055,575 that were more than 90 days past the grant end
       date; as a result, we are questioning this amount. It should be noted
       that 1,429 drawdowns totaling $100,392,960 occurred more than
       1 year after the grant expired.

   •   For 404 grants, OVW allowed grantees to make 779 drawdowns
       totaling $37,279,986 that were more than 90 days past the grant end
       date; as a result, we are questioning this amount. It should be noted



       27
        A detailed list of the expired grants for which we are questioning costs related to
drawdowns occurring more than 90 days after the grant end date will be provided to each
component in a separate document.



                                          - 32 –
       that 250 drawdowns totaling $11,871,512 occurred more than 1 year
       after the grant expired.

       We also identified questioned costs totaling $529,043 related to
21 grants for which the drawdowns exceeded the total award. These grants
included 6 COPS grants with drawdowns in excess of the award amount
totaling $45,688, 14 OJP with drawdowns in excess of the award amount
totaling $442,108, and 1 OVW grant with drawdowns in excess of the award
amount totaling $41,247. In our judgment, the grants payment system
should include a control to prevent grantees from drawing down funds in
excess of the award amount.

      In order to determine if COPS, OJP, and OVW had a justification for
allowing grantees to draw down funds more than 90 days past the grant end
date, we selected a sample of 30 COPS, OJP, and OVW grants (for a total
sample of 90 grants) for which grantees were allowed to make drawdowns
more than 90 days past the grant end date. We requested that COPS, OJP,
and OVW provide any information that might explain why grant drawdowns
occurred more than 90 days after the expiration of the grant, such as an
extension of the grant liquidation.

       Based on our review, we determined that only two grant extensions
were issued extending the liquidation period. However, the extensions
related to these grants were not awarded until between 1 and 2.5 years
after the grant had originally expired. Additionally, for one of the grants for
which an extension was approved, the grantee continued to draw down
funds for an additional year after the end of the extended grant period. In
our judgment, COPS, OJP, and OVW failed to provide valid reasons for
allowing these grantees to draw down funds more than 90 days past the
grant end date. Instead, COPS, OJP, and OVW provided the final or most
recent financial report in an attempt to show that the federal share of costs
reported by the grantee supported the grant drawdowns. However, our
review of the financial reports for the 90 sampled grants revealed that:

   •   COPS, OJP, and OVW did not provide the necessary information to
       determine whether the drawdowns that occurred 90 days past the
       grant end date were based on reported grant expenditures for
       14 percent of the sampled grants.28

       28
           COPS, OJP, and OVW did not provide any financial reports, including the final
financial report, for 14 percent of our sampled grants. Specifically, COPS did not provide
financial reports for 2 grants, OJP did not provide financial reports for 6 grants, and OVW
did not provide financial reports for 3 grants. As a result, we based our percentages on the
79 grants for which we received a financial report.



                                          - 33 –
   •   Grantees reported costs for periods that occurred after the grant end
       date for 53 percent of the sampled grants. This prohibited practice
       indicates that $6.09 million in unallowable costs may have been
       included in the drawdowns after the end of the liquidation period.

   •   The expenditures reported on the financial reports provided did not
       support the total drawdowns for 9 percent of the sampled grants,
       indicating that $116,950 in unsupported costs may have been included
       in the drawdowns after the end of the liquidation period.

   •   The financial reports provided were filed between 1 and 1,350 days
       after the last drawdown for 28 percent of the sampled grants. As a
       result, the DOJ awarding agency did not have a final financial report to
       use in determining whether the late drawdowns were supported.

Costs Charged After the Liquidation Period

       Based on our review of the financial reports for the 90 grants in our
sample, we developed concerns that drawdowns occurring after the end of
the 90-day liquidation period may include unallowable or unsupported costs.
As a result, we selected an additional sample of 66 grants with drawdowns
totaling $75.90 million that occurred more than 90 days past the grant end
date. We conducted expenditure testing at the grantee’s location to
determine whether the costs associated with these drawdowns were properly
charged to the grant in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant.29

       We found that the grantees had not maintained any records for
9 grants with drawdowns totaling $14.39 million that occurred more than 90
days past the grant end date. For one of these grants, with drawdowns
totaling $367,570 that occurred more than 90 days past the grant end date,
the record retention period had not yet expired. Therefore, we consider
these drawdowns unsupported. For the remaining 8 grants, the grantee was
no longer required to maintain the grant records. As a result, we did not
consider these drawdowns unsupported, but we were unable to determine if
the drawdowns included unallowable or unsupported costs. Because grant
closeouts are not being accomplished timely, we are concerned that, in some



       29
          We judgmentally selected our sample of grantees based on: (1) the largest-dollar
drawdowns occurring more than 1 year after the grant end date, (2) the largest number of
grants with drawdowns occurring more than 90 days after the grant end date, and
(3) grantees with drawdowns occurring more than 90 days after the grant end date from
multiple granting agencies included in our audit.



                                         - 34 –
instances, the grantee may no longer be required to maintain the grant
records when the DOJ awarding agency begins the closeout process.

       Based on our review, we found that the drawdowns included
unallowable costs totaling $5.7 million for expenditures obligated after the
grant end date or paid after the end of the 90-day liquidation period. We
also identified unsupported drawdowns totaling $574,940. Additionally, for
drawdown totaling $13.04 million we were unable to determine if the
drawdowns included unallowable or unsupported costs because the
accounting records or supporting documentation was no longer available.
Table 13 illustrates the unallowable and unsupported costs identified for
each grantee included in our on-site reviews, as well as the drawdown for
which we were unable to determine the allowability of the costs included. It
should be noted that we did not question the unallowable and unsupported
costs identified during our on-site reviews. The sample of 66 grants with
drawdowns totaling $75.90 million that occurred more than 90 days past the
grant end date, were already included in the question costs totaling
$554.19 million that we previously identified in this finding.

TABLE 13. ANALYSIS OF ON-SITE REVIEWS
                           TOTAL              TOTAL                          TOTAL DOLLAR-
                        UNALLOWABLE        UNSUPPORTED       UNABLE TO         RELATED
    GRANTEE NAME           COSTS              COSTS          DETERMINE         FINDINGS
CALIFORNIA OFFICE OF
  CRIMINAL JUSTICE
  PLANNING                            -                  -    $10,661,742     $10,661,742
INDIANA CRIMINAL
  JUSTICE INSTITUTE                   -            367,570      1,905,871        2,273,441
NEW JERSEY DEPARTMENT
  OF LAW & PUBLIC
  SAFETY                  $1,524,781          $134,585                   -       1,659,366
WYOMING OFFICE OF THE
  ATTORNEY GENERAL         1,187,351                     -        348,294        1,535,645
ARKANSAS DEPARTMENT
  OF HUMAN SERVICES          763,828                51,268        100,565         915,661
CATAHOULA PARISH
  SHERIFF’S
  DEPARTMENT (LA)            497,925                21,418               -        519,343
NEW MEXICO
  DEPARTMENT OF
  PUBLIC SAFETY              495,353                     -         20,324         515,677
D.C. JUSTICE GRANTS
  ADMINISTRATION             412,737                     -               -        412,737




                                          - 35 –
                              TOTAL              TOTAL                           TOTAL DOLLAR-
                           UNALLOWABLE        UNSUPPORTED      UNABLE TO           RELATED
     GRANTEE NAME             COSTS              COSTS         DETERMINE           FINDINGS
BOYS AND GIRLS CLUBS
  OF AMERICA                     338,051               99                    -         338,150
MARYLAND GOVERNOR’S
  OFFICE OF CRIME
  CONTROL AND
  PREVENTION                     273,977                 -                   -         273,977
ST. LOUIS METROPOLITAN
  POLICE DEPARTMENT
  (MO)                           200,000                 -                   -         200,000
ALABAMA DEPARTMENT OF
  ECONOMIC &
  COMMUNITY AFFAIRS                 6,801                -                   -            6,801
CITY OF FRESNO (CA)                      -               -                   -                 -
NEW YORK STATE
  DIVISION OF CRIMINAL
  JUSTICE                                -               -                   -                 -
TOTAL DOLLAR-
  RELATED FINDINGS         $5,700,80430        $574,94031     $13,036,79532      $19,312,540


      The results of our on-site reviews support our concern that drawdowns
occurring after the end of the 90-day liquidation period include unallowable
and unsupported costs. From our sample, we found that 8 percent of the
grant funds drawn down by the grantees more than 90 days past the grant
end date were for unallowable costs, 1 percent were for unsupported costs,
and we were unable to determine the allowability of 17 percent of the costs
included in the drawdowns.



       30
           The unallowable costs consist of grant expenditures obligated after the grant end
date or paid more than 90 days after the grant end date. We did not include these costs in
our dollar-related findings since they were questioned as drawdowns occurring after the end
of the 90-day grant liquidation period.
       31
           The unsupported costs consist of drawdowns in excess of the federal share of
grant expenditures per the grantee’s accounting records. We did not include these costs in
our dollar-related findings since they were questioned as drawdowns occurring after the end
of the 90-day grant liquidation period.
       32
          These costs consist of expenditures that occurred after the grant end date for
which the grantee had not maintained the supporting documentation necessary to
determine whether the costs were obligated prior to the end of the grant. Since the grantee
was no longer required to maintain records for theses grants, we did not consider the costs
unsupported.



                                             - 36 –
Current Drawdown Practices

       In response to prior OIG audit reports, COPS, OJP, and OVW have
developed or proposed the following closeout policies and procedures to
address the fact that grantees are drawing down funds more than 90 days
after the grant end date.

   •   COPS Expired Grant Policy and Procedures Memorandum, dated March
       31, 2005 - According to the memorandum, after the grant has been
       expired for 90 days, the COPS Finance Division will proceed with the
       deobligation of any remaining funds on those grants which have not
       received an extension within the required period. The COPS Finance
       Division will have an additional 90 days to process the deobligation
       after receipt of the final financial report.

   •   Eligible Reimbursements to Grantees Memorandum, dated
       May 4, 2006 - This memorandum reflects the decision by the COPS
       Executive Management Team to allow certain grantees, on a
       temporary basis, to be paid for documented, unliquidated obligations
       beyond the 90-day period following the grant expiration date until the
       expired grants backlog is eliminated.

       Although we acknowledge these efforts to ensure that grantees draw
down allowable funds within the 90-day liquidation period, we have
identified weaknesses in COPS’s current policy. In our judgment, there is a
contradiction between the two COPS memoranda noted above. The COPS
Expired Grant Policy and Procedures Memorandum requires that any
remaining funds will be deobligated after the grant has been expired for
90 days unless an extension of the liquidation period is obtained within the
required timeframe. Conversely, the Eligible Reimbursements to Grantees
Memorandum allows certain grantees, on a temporary basis, to be paid for
documented, unliquidated obligations beyond the 90-day period.

       Additionally, the Eligible Reimbursements to Grantees Memorandum
states the practice of allowing grantees to draw down unliquidated
obligations beyond the 90-day period will continue until there is no longer an
expired grants backlog. However, this practice is one of the factors
contributing to the expired grants backlog since the federal awarding
agencies spend a significant amount of time following up with grantees to
ensure that “allowable” funds are drawn down after the end of the 90-day
liquidation period prior to closing the grant. As a result, in our judgment,
COPS should immediately discontinue the practice of allowing grantees to
draw down unliquidated obligations beyond the 90-day period.



                                    - 37 –
      In response to the OIG’s March 2005 audit report, OJP stated that it
would “incorporate procedures into its grant monitoring and closeout policies
and procedures to ensure that grantees are not allowed to draw down funds
more than 90 days after the grant end date and that all remaining funds on
grants that have been expired more than 90 days are deobligated.”
However, OJP has not yet updated its policy and procedures to ensure that
grantees are not allowed to draw down funds more than 90 days past the
grant end date.

        Additionally, OVW stated that, “Although OVW has become an
independent Office/Bureau/Division within the Department of Justice, we are
still contracting with OJP OC for financial management services.” However,
as stated above, OJP has not yet updated its policy and procedures to
ensure that grantees are not allowed to draw down funds more than 90 days
past the grant end date.

      We also found that COPS, OJP, and OVW grantees can continue to
draw down funds indefinitely after the grant end date as long as the grantee
continues to submit financial reports. Although the grant payment system
automatically prevents grantees from drawing down funds if a financial
report is not submitted within 45 days after the end of the fiscal quarter,
once a financial report is submitted the grantee is considered to be “current”
and can continue to draw down funds. Since there is no control in the
current grant payment system that recognizes that the grant has expired as
long as grantees submit a financial report prior to drawing down funds, the
system will not prevent them from drawing down funds after the grant end
date. In fact, when COPS, OJP, and OVW contact grantees to draw down
remaining funds even though the 90-day liquidation period may have
passed, they instructed them to submit a financial report so that the grant
payment system recognized them as being current, thus allowing them to
continue to draw down funds.

      Pursuant to all relevant criteria, grantees are required to draw down
grant funds for allowable costs within 90 days after the end of the grant,
unless the grantee requests and receives an extension of time to draw down
funds. Any funds remaining after the end of the liquidation period are
required to be deobligated and regranted or returned to the general fund,
within 180 days after the grant end date. In our judgment, the simple
solution would be to modify OJP’s grant payment system so that grantees
are automatically prevented from drawing down funds more that 90 days
past the grant end date unless they receive an extension.33 Currently, the
grant payment system automatically freezes grant funds if a grantee fails to

      33
           COPS and OVW both use OJP’s grant payment system.



                                        - 38 –
submit a financial report within 45 days after the end of the quarter but does
not include a similar control to prevent grantees from drawing down funds
after the 90-day grant liquidation period has expired. Further, the granting
agencies should ensure that grants are closed and remaining funds are
deobligated with 180 days after the end of the grant.

     We proposed the following solution to prevent grantees from drawing
down funds after the end of the 90-day liquidation period.

   •   The grant payment system should be modified to ensure that grantees
       cannot draw down funds more than 90 days past the grant end date,
       at which time the final financial report should have been submitted.

   •   If a grantee attempts to draw down funds more than 90 days past the
       grant end date the system would automatically reject the request.

   •   Once the reimbursement request is rejected, the grantee would be
       required to contact the DOJ awarding agency to request an extension
       of the liquidation period.

   •   If an extension request is received, the DOJ awarding agency would be
       able to review the final financial report to determine if the federal
       share of outlays reported exceeded the drawdowns.

   •   If the DOJ awarding agency identifies any unliquidated obligations,
       then it would have the option of approving the extension of the
       liquidation period. The extension should not exceed 180 days past the
       original grant expiration date, since the grants should be closed and
       remaining funds deobligated within 180 days after the end of the grant
       period.

   •   If the grantee has not submitted a final financial report, the DOJ
       awarding agency should require that it be submitted before
       considering an extension of the liquidation period.

      Under this process, grantees would not be allowed to draw down funds
more than 90 days past the grant end date without requesting and receiving
an extension in compliance with 28 C.F.R. §66.50(b). In addition, the
process would also ensure that the final financial reports are submitted and
reviewed in a timely manner, so that the granting agencies can determine
whether drawdowns were supported. At the same time, the awarding
agencies must also ensure that grants are closed within 180 days and
remaining funds are deobligated. This would ensure that:



                                     - 39 –
   •   If the DOJ awarding agency grants an extension of the liquidation
       period, the extension will not be granted for more than 180 days after
       the grant end date;

   •   The review and timing of drawdowns would occur during the period for
       which the grantee is required to maintain the grant records; and

   •   Remaining grant funds are deobligated in a timely manner so that the
       funds can be regranted or returned to the general fund.

       We discussed our proposal with COPS, OJP, and OVW officials, and
they agreed with our proposed solution. However, COPS and OVW officials
were not sure if the grant payment system could be modified to
automatically prevent grantees from drawing down funds more than 90 days
past the grant end date since the grant payment system is administered by
the OC. When we discussed this possibility with OC officials, they stated
that it would be difficult to modify the current system to prevent drawdowns
more than 90 days past the grant end date. However, OC officials stated
that DOJ is planning to implement a new grant payment system by 2009 and
acknowledged that an automatic freeze on any remaining funds more than
90 days past the grant end date would be a “good” control in the new grant
payment system.

Conclusion

      As a part of grant closeout the awarding agency is required to identify
any excess and unallowable funds and ensure that these funds are returned
by the grantee. Any funds returned by the grantee should be deobligated
and used to provide DOJ with additional resources needed to fund other
programs, or returned to the general fund.

      However, we found that the current practices of COPS, OJP, and OVW
do not conform to federal regulations and their own policy. In fact, we found
that COPS, OJP, and OVW allowed grantees to draw down funds from
8,917 expired grants totaling $554.19 million more than 90 days past the
grant end date. We are questioning this amount as unallowable because
federal regulations and component policy prohibit drawdowns more than
90 days past the grant end date.

      In addition, we are concerned that drawdowns occurring after the end
of the 90-day liquidation period may include unallowable or unsupported
costs. From a sample of grantees for which on-site review were conducted,
we consider our concern to be valid. Specifically, for our sample we found
that 33 percent of the grant funds drawn down by these grantees were for


                                    - 40 –
unallowable expenditures totaling over $142.74 million. These funds were
obligated after the grant end date.34 Additionally, 11 percent of the grant
funds drawn down by these grantees were for unsupported costs totaling
over $46.52 million.

      In our judgment, the best solution to the problems related to
drawdowns identified in our report would be to modify the grant payment
system so that grantees are automatically prevented from drawing down
funds more than 90 days past the grant end date. Further, the granting
agencies should ensure that grants are closed and remaining funds are
deobligated with 180 days after the end of the grant.

       We discussed our proposed solution with COPS, OJP, and OVW officials
and they agreed with our recommendation. However, OC officials stated
that it would be difficult to modify the current system to prevent drawdowns
more than 90 days past the grant end date. OC officials also stated that
DOJ is planning to implement a new grant payment system by 2009.

Recommendations

      We recommend that COPS:

8.    Ensure that grantees are not allowed to draw down funds more than
      90 days after the grant end date without requesting and receiving an
      extension not to exceed 90 days.

9.    Work with the Office of Justice Programs Office of the Comptroller to
      add a control to the current grant payment system that will prohibit
      grantees from drawing down funds after the end of the 90-day
      liquidation period.

10.   Remedy the $226,856,849 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

11.   Work with the Office of Justice Programs Office of the Comptroller to
      ensure that the current grant payment system includes a control to
      prohibit negative award balances, e.g., total payments in excess of the
      net award amount.
      34
          We found that the grantees had not maintained records for nine grants with
drawdowns totaling $36.14 million. As a result, we were unable to review the expenditures
for these grants. For seven grants with drawdowns totaling $25.73 million, we determine
that the grantee was no longer required to maintain the grant records. However, for two
grants with drawdowns totaling $10.41 million the grantee had not maintained records
despite the fact that the record retention period had not yet expired.



                                         - 41 –
12.   Remedy the questioned costs totaling $45,688 related to grants for
      which the drawdowns exceeded the total award amount.

13.   Ensure that grantees are not allowed to draw down funds for
      unallowable expenditures obligated after the grant end date.35

14.   Ensure that grantees are not allowed to draw down excess funds for
      unsupported expenditures.

15.   Immediately discontinue the practice of allowing grantees to draw
      down unliquidated obligations beyond the 90-day liquidation period
      without an extension.

      We recommend that OJP:

16.   Ensure that grantees are not allowed to draw down funds more than
      90 days after the grant end date without requesting and receiving an
      extension not to exceed 90 days.

17.   Ensure that the current grant payment system includes a control to
      prohibit grantees from drawing down funds after the end of the 90-day
      liquidation period.

18.   Remedy the $290,055,575 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

19.   Ensure that the current grant payment system includes a control to
      prohibit negative award balances, e.g., total payments in excess of the
      net award amount.
20.   Remedy the questioned costs totaling $442,108 related to grants for
      which the drawdowns exceeded the total award amount.

21.   Ensure that grantees are not allowed to draw down funds for
      unallowable expenditures obligated after the grant end date.

22.   Ensure that grantees are not allowed to draw down excess funds for
      unsupported expenditures.


      35
           In our judgment, many of our recommendations would be addressed if the COPS,
OJP, and OWV implemented our proposed solution of modifying the grant payment system
so that grantees are automatically prevented from drawing down funds more than 90 days
past the grant end date. At the same, the awarding agencies would need to ensure that the
final financial reports are reviewed in a timely manner and that grants are closed and
remaining funds are deobligated with 180 days after the end of the grant.



                                         - 42 –
23.   Immediately discontinue the practice of allowing grantees to draw
      down unliquidated obligations beyond the 90-day liquidation period
      without an extension.

      We recommend that OVW:

24.   Ensure that grantees are not allowed to draw down funds more than
      90 days after the grant end date without requesting and receiving an
      extension not to exceed 90 days.

25.   Work with the Office of Justice Programs Office of the Comptroller to
      ensure that the current grant payment system includes a control to
      prohibit grantees from drawing down funds after the end of the 90-day
      liquidation period.

26.   Remedy the $37,279,986 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

27.   Work with the OC to ensure that the current grant payment system
      includes a control to prohibit negative award balances, e.g., total
      payments in excess of the net award amount.

28.   Remedy the questioned costs totaling $41,247 related to grants for
      which the drawdowns exceeded the total award amount.

29.   Ensure that grantees are not allowed to draw down funds for
      unallowable expenditures obligated after the grant end date.

30.   Ensure that grantees are not allowed to draw down excess funds for
      unsupported expenditures.

31.   Immediately discontinue the practice of allowing grantees to draw
      down unliquidated obligations beyond the 90-day liquidation period
      without an extension.




                                   - 43 –
III.   FUNDS REMAINING ON EXPIRED GRANTS

       COPS, OJP, and OVW are not ensuring that remaining grant
       funds are deobligated after the end of the 90-day liquidation
       period. As a result, we identified funds totaling $172.28 million
       that had not been deobligated and put to better use. The funds
       put to better use included $163.96 million in unused funds for
       expired grants that had not been closed and were more than
       90 days past the grant end date, and $8.32 million in unused
       funds for grants that had been reported as closed.


      Pursuant to federal regulations and DOJ policy, grant funds must be
drawn down within 90 days after the end of the grant period. Additionally,
unless an extension of time to draw down funds is requested by the grantee
and authorized, any grant funds not drawn down within the 90-day
liquidation period should revert back to the DOJ awarding agency to be
regranted or returned to the general fund. As part of the closeout process
COPS, OJP, and OVW are required to review the grant drawdowns to identify
any unused funds and deobligate these funds within 180 days after the
expiration of the grant. Based on our review of 60,933 expired and closed
grants, we identified $172.28 million in unused grant funds that had not
been drawn down within 90 days after the grant end date, for which the
grantees had not requested or received an extension of the liquidation
period.36 These funds should have reverted back to the DOJ awarding
agency and been made available for other purposes. Failure to close out
grants in a timely manner and deobligated remaining grants funds within
180 days after the expiration of the grant has resulted in COPS, OJP, and
OVW having millions of dollars in unused grant funds reported in their
accounting systems for years. However, because of the delay in the grant
closeout process, the DOJ awarding agencies did not know the amount of
unused funds in their accounting systems that should have been
deobligated.

Funds Remaining on Expired Grants

      As shown in Table 14, we identified funds totaling $163,955,084
associated with 3,350 expired grants that had not been closed and were
more than 90 days past the grant end date, for which the grantees had not
requested or received an extension of the time in which to draw down funds.

       36
          A detailed list of the expired and closed grants for unused funds that had not been
deobligated and put to better use will be provided to each component in a separate
document.



                                          - 44 –
 However, COPS, OJP, OVW, had not deobligated these funds and put them
 to better use.

 TABLE 14. UNUSED GRANT FUNDS FOR EXPIRED GRANTS 90 DAYS
           PAST THE GRANT END DATE (Dollars in Millions)
                               COPS                    OJP                  OVW
                                  UNUSED                  UNUSED               UNUSED
     NO. OF YEARS         NO. OF   GRANT        NO. OF     GRANT      NO. OF   GRANT
    PAST END DATE         GRANTS  FUNDING       GRANTS    FUNDING     GRANTS  FUNDING
 90 Days to 12 Months        691    $33.18         517      $42.79       158     $9.30
   13 to 24 Months           470     25.63         164        9.16        79      2.65
   25 to 36 Months           385     11.40          81        2.25        19      0.39
   37 to 48 Months           252      7.39          30        2.92        15      0.98
   49 to 60 Months           206      5.14          26        2.41         8      0.28
     > 60 Months             201      5.85          39        1.54         9      0.69
        TOTAL              2,205   $88.59          857     $61.08        288   $14.29
Source: COPS, OJP, and OVW list of expired grants and the grant payment histories

        Specifically, we identified:

    •   2,205 COPS grants more than 90 days past the grant end date with
        remaining grant funds totaling $88,587,211; as a result, these funds
        should be deobligated and put to better use.

    •   857 OJP grants more than 90 days past the grant end date with
        remaining grant funds totaling $61,082,443; as a result, these funds
        should be deobligated and put to better use.

    •   288 OVW grants more than 90 days past the grant end date with
        remaining grant funds totaling $14,285,431; as a result, these funds
        should be deobligated and put to better use.

       Of these amounts, 1,044 COPS grants with funds remaining of
 $29,779,911, 176 OJP grants with funds remaining of $9,126,165, and
 51 OVW grants with funds remaining of $2,334,805 have been expired more
 than 2 years.

       Additionally, we identified 309 grants reported as closed with unused
 funds totaling $8,321,570, which had not been deobligated and put to better
 use. These grants included 103 COPS grants with funds totaling
 $4,730,492, 195 OJP grants with funds totaling $3,488,483, and 11 OVW
 grants with funds totaling $102,595 that should have been deobligated and
 put to better use prior to closing the grants.




                                          - 45 –
        During our follow-up discussions with COPS officials related to funds
remaining on grants reported as closed, COPS requested that we provide a
list of the grants in question so that they could determine the reasons why
the funds had not been deobligated. We provided COPS with a list of the
103 grants reported as closed with funds remaining of $4,730,492. In
response, COPS officials stated that the COPS Finance Division reviewed our
list and created a new list from which they removed all of the grants with a
current “zero balance” indicating that the funds for 53 grants had been
deobligated or drawn down subsequent to our review. The new list provided
by COPS included 50 grants with funds remaining of $2,091,725. To
determine reasons for the differences between our list of 103 grants and the
COPS list of 50 grants, we requested the grant payment histories for all
103 grants.

      Based on our review of the grant payment histories for the 103 grants
reported as closed with funds remaining, we determined that subsequent to
our initial analysis:

  •   COPS allowed grantees to draw down $147,862 on grants reported as
      closed; as a result, we are questioning this amount as unallowable.

  •   COPS deobligated $1,767,859 in funds remaining for 56 grants
      reported as closed, of which $894,155 for 25 grants was deobligated
      after the initial list of the 103 grants was provided to COPS.

  •   For 44 grants we identified unused funds totaling $$2,849,825, which
      COPS had not been deobligated and put to better use.

Recommendations

      We recommend that COPS:

32.   Ensure that all funds remaining on grants are deobligated within
      180 days after the expiration of the grant and regranted, or returned
      to the general fund.

33.   Deobligate and put to better use the $88,587,211 in remaining funds
      related to expired grants that are more than 90 days past the grant
      end date.

34.   Ensure that remaining grant funds are deobligated prior to closure.

35.   Deobligate and put to better use the $2,849,825 in remaining funds
      related to grants that were reported as closed.


                                   - 46 –
36.   Remedy the $147,862 in questioned costs related to drawdowns
      occurring after the grant was reported as closed.

We recommend that OJP:

37.   Ensure that all funds remaining on grants are deobligated within
      180 days after the expiration of the grant and regranted, or returned
      to the general fund.

38.   Deobligate and put to better use the $61,082,443 in remaining funds
      related to expired grants that are more than 90 days past the grant
      end date.

39.   Ensure that remaining grant funds are deobligated prior to closure.

40.   Deobligate and put to better use the $3,488,483 in remaining funds
      related to grants that were reported as closed.

We recommend that OVW:

41.   Ensure that all funds remaining on grants are deobligated within
      180 days after the expiration of the grant and regranted, or returned
      to the general fund.

42.   Deobligate and put to better use the $14,285,431 in remaining funds
      related to expired grants that are more than 90 days past the grant
      end date.

43.   Ensure that remaining grant funds are deobligated prior to closure.

44.   Deobligate and put to better use the $102,595 in remaining funds
      related to grants that were reported as closed.




                                   - 47 –
                 STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of grant closeout within DOJ, we
considered COPS, OJP, and OVW’s internal controls for the purpose of
determining our auditing procedures. The evaluation was not made for the
purpose of providing assurance on the internal control structure as a whole.
However, we noted certain matters that we consider reportable conditions
under generally accepted government auditing standards.37


Finding I

   •   COPS, OJP, and OVW did not ensure that expired grants were closed
       within 6 months of the grant end date; as a result, the federal
       awarding agencies failed to ensure that grantees complied with all
       essential grant requirements in a timely manner.

Finding II

   •   COPS, OJP, and OVW did not ensure that grantees were not allowed to
       draw down funds more than 90 days after the grant end date.

Finding III

   •   COPS, OJP, and OVW did not ensure that all funds remaining on grants
       that had expired for more than 90 days were deobligated.

      Because we are not expressing an opinion on the overall management
control structure of COPS, OJP, or OVW, this statement is intended solely for
the information and use by these components in administering the federal
regulations governing for federal grants.




       37
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the management control structure that,
in our judgment, could adversely affect the ability of COPS, OJP, and OVW to administer
grants awarded to state, local, and tribal governments.



                                           - 48 –
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we tested COPS,
OJP, and OVW records and documents pertaining to closed and expired
grants awarded between FYs 1999 and 2005 to obtain reasonable assurance
that each component complied with laws and regulations that, if not
complied with, in our judgment could have a material effect on the
administration of grants awarded by DOJ. Compliance with laws and
regulations applicable to the timely closure of expired grants is the
responsibility of COPS, OJP, and OVW management. An audit includes
examining, on a test basis, evidence about compliance with laws and
regulations. At the time of our audit, the federal regulations governing the
requirements for federal grants could be found in:

        •   28 C.F.R. Part 66, Uniform Administrative Requirements for Grants and
            Cooperative Agreements to State and Local Governments

        •   28 C.F.R. Part 70, Uniform Administrative Requirements for Grants and
            Agreements (including subawards) with Institutions of Higher
            Education, Hospitals and Other Non-profit Organizations

        •   OMB Circular A-102, Grants and Cooperative Agreements with State
            and Local Governments

        •   OMB Circular A-110, Uniform Administrative Requirements for Grants
            and Agreements With Institutions of Higher Education, Hospitals, and
            Other Non-Profit Organizations

        •   OMB Circular A-123, Management’s Responsibility for Internal Control


      Except for the issues discussed in the Findings and Recommendations
section of this report, nothing came to our attention that caused us to
believe that COPS, OJP, and OVW management was not in compliance with
the federal regulations governing the requirements for federal grants listed
above.




                                        - 49 –
                                                                              APPENDIX I

            SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:38                                          AMOUNT               PAGE

   Drawdowns occurring more than 90 days
   past the grant end date                                 $554,192,410             32

   Drawdowns in excess of the award
   amount                                                        $529,043           33

TOTAL QUESTIONED COSTS                                    $554,721,453



FUNDS PUT TO BETTER USE:39

   Grant funds remaining for expired grants
   that are more than 90 days past the
   grant end date                                          $163,955,084             45

   Grant funds remaining for closed grants40                   $8,321,570           46

TOTAL FUNDS PUT TO BETTER USE                             $172,276,654

   TOTAL DOLLAR-RELATED FINDINGS                          $726,998,107




       38
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       39
            Funds Put to Better Use are funds not yet expended that could be used more
efficiently if management took action to implement and complete audit recommendations.
       40
           The $8,321,570 in funds to be put to better use for closed grants is the amount
identified during our initial review. As stated on page 47 of this report, subsequent to our
review COPS deobligated $1,767,859 in funds remaining for 56 grants reported as closed
and allowed grantees to draw down $147,862 on grants reported as closed, which we are
questioning as unallowable.



                                           - 50 –
                                                              APPENDIX II

           OBJECTIVES, SCOPE, AND METHODOLOGY

      We reviewed COPS, OJP, and OVW closeout processes to determine
whether the grant closeout policies and procedures are adequate to ensure
that: (1) expired grants are closed in a timely manner; (2) grant funds are
drawn down in accordance with federal regulations, DOJ policy, and the
terms and conditions of the grant; and (3) remaining grant funds are
deobligated prior to closeout.

      We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were necessary to accomplish the
audit objectives. The audit generally covered, but was not limited to, all
expired DOJ grants that had not been closed by COPS, OJP, and OVW, as of
December 2005, as well as all grants closed during FYs 1999 through 2005.
Audit work was conducted at COPS, OJP, OVW, and selected grantees.

       To determine whether COPS, OJP, and OVW closed expired grants in a
timely manner, we requested a list of all expired grants that had not been
closed as well as a list of all grants closed between FYs 1999 through 2005.
For grants which had been closed, we reviewed the closeout date to
determine whether the grant was closed within 6 months of the grant
expiration. For grants which had not been closed, we reviewed the grant
end date to determine whether the grant had been expired for more than 6
months without being closed. In order to determine the reasons for the
delay in the closeout process, we then reviewed a sample of grants that had
either been expired for more than 6 months and that had not been closed or
were closed more than 6 months after the grant end date. If the delays in
the closeout process were due to grantee non-compliance, such as not
submitting final financial and progress reports, we attempted to determine
whether COPS, OJP, and OVW had awarded any new grants during the
delay. We also conducted our own analysis to determine the length of time
it would take to eliminate the backlog of expired grants based on the
historical closeout practices of COPS, OJP, and OVW.

      To determine whether COPS, OJP, and OVW allowed grantees to draw
down funds more than 90 days past the grant end date, we compared the
grant end date with the date of the last drawdown as reported on the grant
payment history. For all grants where the date of the last drawdown was
made after the grant end date, we reviewed the grant payment history to
determine the number of grant drawdowns made and the amount of those
drawdowns. In addition, for the following sample of grants in which COPS,
OJP, and OVW allowed the grantee to draw down federal funds after the


                                   - 51 –
liquidation period, we conducted expenditure testing at the grantee’s
location to determine whether the costs were properly charged to the grant
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant.

                                                                       TOTAL
                                                                    DRAWDOWNS
                                        DOJ                        90 DAYS AFTER
                                      AWARDING                       THE GRANT
        GRANTEE NAME                   AGENCY     GRANT NO.           END DATE
ALABAMA DEPARTMENT OF ECONOMIC          OJP       1996DBMU0001      $      24,858.35
  & COMMUNITY AFFAIRS                   OJP       1999VAGX0001            162,324.35
                                        OJP         1998JFFX0001          162,446.72
                                        OJP        1999RTVX0001           501,259.26
                                        OVW       1997WFVX0001          1,248,438.25
               TOTAL                                                 $2,099,326.93
BOYS AND GIRLS CLUBS OF AMERICA         OJP       2001LDBXK002      $ 500,000.00
                                        OJP        1999LBVXK001      29,675,000.00
                                        OVW       1998WTVXK008           40,047.00
               TOTAL                                                $30,215,047.00
 INDIANA CRIMINAL JUSTICE INSTITUTE     OJP       1995DBVX0018          $367,569.96
                                        OJP       1995RURXK041           764,827.64
                                        OJP       1999RTVX0018           674,786.36
                                        OJP        1997SYBX0018          137,347.43
                                        OVW       1996WFNX0018           328,909.58
               TOTAL                                                 $2,273,440.97
ST. LOUIS METROPOLITAN POLICE           COPS      1995CCWX0165       $2,236,406.66
  DEPARTMENT (MO)                       COPS      1997PAWXK014           14,275.06
                                        COPS      1996CNWX0016           27,011.35
               TOTAL                                                 $2,277,693.07
NEW MEXICO DEPARTMENT OF PUBLIC         COPS      1998CLWX0200          $603,227.57
  SAFETY                                 OJP      1995RURXK036           689,217.54
                                         OJP      1997DBMU0035           251,227.30
                                         OJP      1995DBVX0035            81,399.35
                                         OJP      1990DBCX0035            20,323.96
                                         OJP       1999RTVX0035          414,977.22
                                         OJP      1998NRCXK055           231,523.13
                                         OJP       1997RTVX0035           81,805.76
                                         OJP       1997SYBX0035          157,817.00
                                         OJP       1998SYBX0035           14,587.07
                                         OJP       1997TTVX0004           46,797.50
               TOTAL                                                 $2,592,903.40




                                         - 52 –
                                                                 TOTAL
                                                              DRAWDOWNS
                                   DOJ                       90 DAYS AFTER
                                 AWARDING                      THE GRANT
        GRANTEE NAME              AGENCY      GRANT NO.         END DATE
WYOMING OFFICE OF THE ATTORNEY     OJP       1998DBMU0056      $1,166,836.69
  GENERAL                          OJP       1997DBMU0056         147,351.19
                                   OJP       1996DBMU0056          28,599.09
                                   OJP        1998SYBX0056        138,980.50
                                   OJP        1997SYBX0056        166,727.00
                                   OJP        1999SYBX0056         71,628.90
                                   OJP       1998NRCXK017          83,944.90
                                   OVW       1997WFVX0056         204,047.70
              TOTAL                                            $2,008,115.97
ARKANSAS DEPARTMENT OF HUMAN       OJP        1998JFFX0005         $261,635.00
  SERVICES                         OJP        2002JFFX0005          272,569.00
                                   OJP        1996JFFX0005           91,075.00
                                   OJP        2000JPFX3005          289,411.00
              TOTAL                                                $914,690.00
CATAHOULA PARISH SHERIFF’S
  DEPARTMENT (LA)                  COPS      1997UMWX0675          $256,723.04
              TOTAL                                                $256,723.04
NEW JERSEY DEPARTMENT OF LAW &     OJP        2002JFFX0034     $1,753,000.00
  PUBLIC SAFETY                    OJP       2001AHFX0034         171,367.92
                                   OVW       1997WFVX0034       1,773,660.11
                                   OVW       2001WFBX0006       1,583,800.97
                                   OVW       1995WFNX0034         163,519.72
              TOTAL                                            $5,445,348.72
NEW YORK STATE DIVISION OF         OJP       1997DBMU0036      $     611,069.55
  CRIMINAL JUSTICE                 OJP       1996DBMU0036            284,588.79
                                   OJP        1995JFFX0036         2,227,266.99
                                   OJP        1996JFFX0036         2,385,537.00
                                   OJP        1997JPFX0036           485,529.00
              TOTAL                                            $5,993,991.33
CALIFORNIA OFFICE OF CRIMINAL      OJP       1999DBBX0006     $ 1,643,302.00
  JUSTICE PLANNING                 OJP       1998DBMU0006       4,852,489.40
                                   OJP       1998VAGX0006         915,837.33
                                   OJP        2000JFFX0006      7,618,184.00
                                   OVW       2000WEVX0013         217,211.00
              TOTAL                                           $15,247,023.73
CITY OF FRESNO (CA)                COPS      1995CCWX0485      $3,513,306.00
              TOTAL                                            $3,513,306.00



                                    - 53 –
                                                                 TOTAL
                                                              DRAWDOWNS
                                   DOJ                       90 DAYS AFTER
                                 AWARDING                      THE GRANT
       GRANTEE NAME               AGENCY     GRANT NO.          END DATE
D.C. JUSTICE GRANTS                OJP        2001JBBX0011     $1,319,948.76
  ADMINISTRATION                   OJP        1995JFFX4411        121,394.94
                                   OJP        1997JPFX4011         50,000.00
                                   OVW       1999WFVX4011         231,353.07
                                   OVW       1998WFVX4011         184,453.10
             TOTAL                                             $1,907,149.87
MARYLAND GOVERNOR’S OFFICE OF      OJP        1999JPFX0024      $109,934.00
  CRIME CONTROL AND PREVENTION     OJP       1999AHFX0024        228,385.00
                                   OJP        1998JPFX0024       227,948.00
                                   OVW       1998WFVX0024        500,045.00
                                   OVW       1996WFNX0024         86,699.00
             TOTAL                                             $1,153,011.00
       TOTAL DRAWDOWNS                                       $75,897,771.03


      To determine whether any grant funds remained on expired grants
administered by COPS, OJP, and OVW, we compared the grant end date with
the date of the grant payment history to identify all grants that had been
expired for more than 90 days. For all expired grants more than 90 days
past the grant end, we reviewed the grant payment history to determine the
amount of remaining grant funds.




                                    - 54 –
                                                                             APPENDIX III

  GRANT CLOSEOUT FINDINGS IDENTIFIED BY THE OJP’S
   BUSINESS PROCESS IMPROVEMENT DESIGN GROUP41

       In September 2005,the Office of Justice Programs completed a review
of its grant closeout process.42 The goal of this review was to evaluate the
closeout process it identified as “burdensome and problematic” in order to
design a new streamlined closeout process that would bring standardization,
efficiency and automation to OJP. In its analysis OJP identified the following
areas of concern related to its grant closeout process:

   •   Inconsistencies exist between OJP and DOJ Closeout Guidelines.
       According to OJP, the closeout process does not conform to DOJ
       closeout guidelines documented in 28 C.F.R. §66.50; OMB
       Circular A-102; or OMB Circular A-110. OJP found that it was not in
       compliance with documentation and timeline requirements as set forth
       in these documents. OJP program offices were not consistently
       collecting required final reports and timeframes for closeout deadlines
       that were documented in OJP policies and procedures were not
       consistent. Also, communications to grantees were up to twice as long
       as the deadlines set forth by DOJ regulations.

   •   Insufficient and inconsistent policies and procedures exist to govern
       the closeout process. OJP found that its program offices lacked a
       clear, concise, and accurate set of policies and procedures for the
       grant closeout process. OJP policies and procedures provided
       conflicting information regarding documentation, timeliness, and roles
       and responsibilities. Additionally, the OJP Financial Guide, Grant
       Manager’s Manual, and OJP Office of the Comptroller (OC) policy
       statement lack sufficient guidance for rules and regulations concerning
       administrative closeouts for uncooperative grantees.

   •   Resources to support the process do not exist to ensure accuracy and
       completeness. OJP found that its staff did not have access to the
       correct tools and information needed to accurately complete the grant
       closeout process. Information regarding closeout procedures was

       41
          All findings listed were identified by OJP in its report entitled, Grant Closeout:
Business Improvement Recommendations, Final Version, September 15, 2005.
       42
          This review was conducted by OJP Business Process Improvement (BPI) Design
Group, which was comprised of representatives from OJP program and support offices. The
BPI is an OJP Executive Steering Committee initiative that supports the OJP Management
Plan goal of improving OJP’s core business processes.



                                            - 55 –
    provided to grantees, but was not easily accessible, nor was it
    presented at the correct point during the life of the award and was not
    easily understood. Additionally, grantees and grant managers alike
    were not consistently provided with data regarding end dates of
    awards and, similarly, the OC monitoring data was not appropriately
    disseminated within OJP program offices.

•   Lack of grantee and OJP program office coordination. OJP found that
    its program offices were only able to determine that a grantee
    completed the closeout requirements by directly contacting the
    grantee for information. There was no single, comprehensive source
    for a grantee's full programmatic and financial history. According to
    OJP, the reactive nature of this process, e.g., contacting grantees and
    requesting they provide missing documents, created difficulty for a
    variety of reasons, including: (1) grantees were not fully aware of
    closeout requirements and were thus, non-responsive to grant
    manager requests, (2) appropriate grantee contacts could be difficult
    to reach if the project has experienced turnover in key staff members,
    (3) communication deficiencies exist between programmatic and
    financial contacts for a particular grant, and (4) certain grantees
    abandon entire projects and cannot be located.

•   Handoffs between OJP program offices and the OC. OJP found that its
    program offices had no means to determine where a closeout was in
    the process once it had been submitted to the OC, which became an
    issue when a closeout package was rejected and returned to the grant
    manager. Additionally, closeout packages can be placed on hold by
    the OC with no communication to the program office. This became an
    issue when the program office reviews reports that track the number
    of closeouts performed and those that remained outstanding. Finally,
    program offices that manage large numbers of grants lack the
    appropriate tools to adequately track closeout packages that have
    been completed and submitted to the OC, which leads to multiple
    submissions for a single grant.

•   Lack of an audit trail. The lack of visibility also relates back to the
    issue of lack of audit trail information. Program offices, with the
    exception of the National Institute of Justice (NIJ), which uses the
    NIJ Pipeline System, do not have tools in place to track grant closeout
    packages. Program offices currently rely on the OC Systems Branch
    to provide reports with upcoming closeout dates and closeouts that are
    past due. The OC utilizes several tools for tracking closeout
    information. However, the information captured is differentiated



                                 - 56 –
    and does not provide a complete picture of the closeout package
    status.

•   Non-standard business processes are the rule, rather than the
    exception. Each program office conducts the closeouts process
    differently and often have undefined and undocumented
    “workarounds” that have evolved over time. In addition, roles and
    responsibilities vary by program office.

•   Performance measures are not established or enforced to ensure
    timely completion of the closeout process. OJP does not currently
    track whether grant closeouts were completed correctly, the length of
    time it took to complete the full closeout process, or how many
    administrative closeouts were processed.

•   System tools are not in place to effectively support the process. A
    variety of systems are in place to track grant closeout data. However,
    these systems do not interact or interface with each other, do not
    cover all aspects of the grant closeout process, and collect
    disaggregate information that does not add value to the overall grant
    closeout process. In addition, the manual nature of the closeout
    process causes the following:

    Issue                      Implication

    Manual process is too      • A combination of the lengthy and cumbersome
    lengthy or involved for      current process, along with lack of prioritization of
    grant managers’ volume       closeouts by management, results in closeouts not
    of closeouts                 being completed within established timeframes.

    No standard method of      • Consistent language, timeframes, and requirements
    communication between        are not communicated to grantees across OJP
    the grantee and OJP          program offices and the OC, and even across grant
    program office, OJP          managers within a particular OJP program office.
    program office and the       This results in inconsistent customer services and
    OC, and the OC and           confusion for grantees who work with multiple OJP
    grantee                      offices.

                               • Workload is increased in the OC by having to check
                                 for different forms, signatures, and notations on
                                 closeout packages from each of the different OJP
                                 program offices.

    Inability to accommodate   • Grants are left unattended and unsupervised when a
    workforce changes (grant     grant manager leaves and a new grant manager is
    managers) in a timely        not immediately assigned. This lapse in grant
    manner                       management has numerous implications for OJP and



                                    - 57 –
      Issue                     Implication
                                  makes these grants especially difficult to close at the
                                  end of the grant because of the loss of familiarity
                                  with the grant and grant staff.

      No dissemination of       • Grant managers who do not have adequate access to
      monitoring data in OJP      the OC monitoring list will submit closeout packages
      program offices             to the OC where they will be placed on hold until
                                  monitoring issues are resolved and holds are
                                  released. OJP program offices are not always aware
                                  when a closeout package is placed on hold in the OC.

      Inconsistent system and   • Each OJP program office complies and processes
      methods for completing      closeout packages differently. This non-standard
      closeout packages           approach does not facilitate a shared knowledge
                                  base for closeout across OJP, results in
                                  inconsistencies for grantees who work with multiple
                                  OJP program offices, and creates additional work for
                                  the OC during review of closeout packages.


     Upon completing its review, OJP identified the following areas and
recommendation for improvement. Specifically:

  •   Revise policies and procedures for the OJP-wide manual grant closeout
      process. Communicate to, and train all relevant OJP staff on the new
      policies and procedures.

  •   Develop new OJP closeout forms to facilitate the manual process.

  •   A streamlined and standard OJP-wide grant closeout process should be
      adopted.

  •   Grantees should be held accountable for timely and consistent
      completion of closeout requirements.

  •   Grantees and OJP staff should have better access to closeout
      information.

  •   The new closeout process should be flexible enough to meet OJP’s
      needs.
  •   Formal, OJP-wide policies and procedures should be established to
      support the automated closeout process.

  •   The OJP Office of the Assistant Attorney General should be the formal
      owner of the grant closeout process.


                                     - 58 –
•   Formal, OJP-wide roles and responsibilities should be established to
    support the improved closeout process.

•   Establish performance measures to monitor efficiency and compliance
    with the OJP-wide closeout process.

•   The grant closeout process should be fully automated.




                                 - 59 –
         APPENDIX IV




- 60 –
- 61 –
- 62 –
- 63 –
- 64 –
- 65 –
         APPENDIX V




- 66 –
- 67 –
- 68 –
- 69 –
- 70 –
- 71 –
- 72 –
         APPENDIX VI




- 73 –
- 74 –
- 75 –
- 76 –
- 77 –
- 78 –
- 79 –
                                                             APPENDIX VII

             ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT


      In response to our audit report, COPS and OVW concurred with the all
of our recommendations and discussed the actions they have taken and
others they plan on implementing to address our findings. OJP also
concurred with the majority of our recommendations and discussed the
actions they plan on implementing to address our findings. However, the
OIG has identified several issues in OJP’s response to our draft report (see
Appendix V) that we believe should be addressed. As a result, we are
providing the following comments on OJP’s response to the draft report.

     In Appendix V, pages 66 through 67, OJP provided the following
general statement in response to the report:

      The Office of Justice Programs does not agree with the OIG’s
      interpretation that OJP’s practice of allowing grantees to draw
      down grant funds more than 90 days after the end date of the
      grant period violates Federal regulations (28 C.F.R. §66.23 and
      §66.50). The Code of Federal Regulations, specifically 28 C.F.R.
      §66.23(b), states that “a grantee must liquidate all obligations
      incurred under the award not later than 90 days after the end of
      the funding period…to coincide with the submission of the annual
      Financial Status Report (SF-269).” The section of 28 C.F.R. that
      details guidance regarding drawdown of grant funds is 28 C.F.R.
      §66.50(d) (Cash Adjustments), which states that the Federal
      agency will make prompt payment to the grantee for allowable
      reimbursable costs.

       The OIG agrees that C.F.R. §66.23(b) refers to the liquidation of grant
funds. However, in our judgment this section of the C.F.R. requires grantees
to liquidate all outstanding obligations and draw down allowable funds within
90 days after the end of the grant, as suggested by the title of C.F.R. §66.23
“Period of Availability of Funds.”

      Further, the OIG disagrees with the statement that “The section of
28 C.F.R. that details guidance regarding drawdown of grant funds is
28 C.F.R. §66.50(d) (Cash Adjustments).” As stated on page 30 of the
report, the section that details guidance regarding the final drawdown of
grant funds is 28 C.F.R. §66.50(b) not 28 C.F.R. §66.50(d). 28 C.F.R.
§66.50(d), which is referred to by OJP in its response, states that “the


                                   - 80 –
federal agency will make prompt payment to the grantee for allowable
reimbursable costs.” However, that section of the C.F.R. refers to the
awarding agencies responsibilities to make prompt payment once the final
drawdown occurs, rather than the length of time grantees are allowed to
make the final drawdown. 28 C.F.R. §66.50(b) refers to the grantee’s
responsibilities to submit, within 90 days after the expiration or termination
of the grant, all financial, performance, and other reports required as a
condition of the grant. According to 28 C.F.R. §66.50(b)(3), within 90 days
after the expiration of the grant, the grantee must submit the final request
for payment (drawdown).43 Additionally, as stated on page 31 of the report,
the OJP Financial Guide also requires grantees to request final payment for
reimbursement of expenditures incurred prior to the grant expiration date in
conjunction with the submission of the final financial report, which according
to 28 C.F.R. §66.50(b) is due within 90 days after the grant end date.44
Therefore, the OIG maintains that it is correct in its interpretation of the
C.F.R. related to the fact that OJP’s practice of allowing grantees to draw
down grant funds more than 90 days after the end date of the grant period
violates federal regulations.

      In Appendix V, page 67, OJP also provided the following general
statement in response to the report:

       Obligations incurred during the grant period and liquidated
       within 90 days after the end date of the funding period are
       allowable expenditures. Since the obligations are appropriately
       incurred, it is consistent with the clear statutory intent of the
       appropriation for the grantee to be permitted to draw down
       grant funds to reimburse itself for costs incurred during the
       grant period.

       43
            28 C.F.R. § 66.50(b) requires that within 90 days after the expiration of the
grant, the grantee must submit the final request for payment, Standard Form 270 (SF 270).
The C.F.R. is outdated in that the DOJ awarding agencies no longer use the SF 270, Request
for Advance or Reimbursement. Instead, grantees request funds (drawdown) using:
(1) Phone Activated Paperless Request System (PAPRS); or (2) Letter-of-Credit Electronic
Certification System (LOCES). Generally, funds will be deposited into the grantees financial
institution within 48 hours after the drawdown request is received. In our judgment,
although the DOJ awarding agencies no longer use the SF 270 cited in 28 C.F.R. § 66.50,
grantees are still required to draw down all allowable grant funds within 90 days after the
grant end date.
       44
          It should be noted that COPS has also interpreted 28 C.F.R. §66.23 and §66.50 as
a requirement that grantees must drawdown all allowable grant funds with 90 days after the
grant end date. As stated on page 31 of the report, each of the COPS Grant Owner's
Manuals requires that grant funds must be obligated before the end of the grant period.
The manuals also require that grantees request reimbursement for obligated funds within
90 days after the end of the grant period.



                                          - 81 –
       We agree that obligations incurred during the grant period and
liquidated within 90 days after the end date are allowable expenditures.
However, as stated previously, 28 C.F.R. §66.50(b), requires grantees to
draw down grant funds for all allowable expenditures within 90 days after
the expiration of the grant. As stated on page 30 of the report, at the
request of the grantee, the DOJ awarding agency may extend the liquidation
period. However, according to 28 C.F.R. §66.50 and OJP’s grant closeout
policies and procedures, OJP must ensure that expired grants are closed
within 180 days after the grant end date. As a result, extensions of the
grant liquidation must not exceed 180 days after the grant end date. In its
response, OJP incorrectly implies that as long as the grantee incurs allowable
expenditures, the grant funds may be draw down for an indefinite period of
time.

       As shown in Table 12 on page 32 of the report, OJP’s failure to enforce
the federal regulations and its own policy related to the 90 day grant
liquidation period has resulted in questioned costs totaling over $290 million.
It is also important to note that in addition to allowing grantees to draw
down funds after the end of the 90 days liquidation period, OJP was not
closing grants within 180 days after the grant end date. As a result, OJP
allowed grantees to make 1,429 drawdowns totaling $100.39 million more
than 1 year after the grant expired. Of this amount, OJP allowed grantees to
make 243 drawdowns totaling $24.75 million more than 2 years after the
grant expired. Further, as stated on pages 34 through 35 of the report,
based on a sample of 66 grants with drawdowns totaling $75.90 million that
occurred more than 90 days past the grant end date, we found that the
drawdowns included unallowable costs totaling $5.7 million for expenditures
obligated after the grant end date or paid after the end of the 90-day
liquidation period. We also identified unsupported drawdowns totaling
$574,940. Additionally, for drawdown totaling $13.04 million we were
unable to determine if the drawdowns included unallowable or unsupported
costs because the accounting records or supporting documentation was no
longer available.

      The timely closeout of grants is an essential financial management
practice to identify any excess and unallowable funds that should be
returned by the grantee, as well as unused funds that should be deobligated
and put to better use. The financial issues related to DOJ’s failure to close
out grants in a timely manner are detailed in Findings II and III of this
report. However, it should be noted that as a result of DOJ’s failure to close
grants timely, we identified questioned costs and funds to be put to better
use totaling over $726 million, representing funds that could have been used
to provide DOJ with additional resources needed to fund other programs or
returned to the federal government’s general fund. About 71 percent of the


                                    - 82 –
dollar-related findings occurred more than 6 months after the grant end
date. In our opinion, the majority of the dollar-related findings would most
likely not have occurred if COPS, OJP, and OVW closed grants in a timely
manner. Therefore, it is important that OJP ensures that grantees draw
down grant funds for all allowable expenditures within 90 days after the
expiration of the grant, in accordance with the timeframes established in
28 C.F.R. §66.50(b), and that any extensions of the grant liquidation period
do not exceed 180 days past the grant end date.

      In Appendices IV through VI, pages 60 through 79, COPS, OJP, and
OVW provided responses to the OIG recommendations, which we analyze in
turn:


1.   Resolved (COPS). This recommendation can be closed when we
     receive documentation supporting that COPS has revised its closeout
     policies and procedures to include the requirement that expired grants
     are closed within 6 months of the grant end date.

2.   Resolved (COPS). This recommendation can be closed when we
     receive documentation supporting that COPS has revised its closeout
     policies and procedures to include specific timeframes are established
     for each closeout task to ensure that grants are closed within the 6
     month period.

3.   Resolved (COPS). This recommendation can be closed when we
     receive documentation supporting that COPS has increased the
     number of vetting cycles performed in order to expedite the
     identification of eligible grants for closure and is using proactive
     database queries and management reports, to monitor the progress of
     eliminating the closeout backlog, as well as using the tracking system
     to ensure that future expired grants are closed within 6 months of the
     grant end date.

4.   Resolved (OJP). This recommendation can be closed when we
     receive documentation that OJP has fully implemented the Business
     Process Improvement (BPI) recommendations.

5.   Closed (OJP).

6.   Resolved (OVW). This recommendation can be closed when we
     receive documentation supporting that OVW has revised and fully
     implemented grant closeout policies and procedures to ensure that
     grants are closed within 6 months of the grant end date.


                                   - 83 –
7.    Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has established a system
      to track progress towards closing expired grants, as well as eliminating
      the backlog of expired grants.

8.    Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has developed and
      implemented policies and procedures to ensure that grantees are not
      allowed to draw down funds more than 90 days after the grant end
      date without requesting and receiving an extension.

9.    Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has requested that OJP
      add a control to their grant payment system prohibiting grantees from
      drawing down funds after the end of the 90-day liquidation period.

10.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has remedied the
      $226,856,849 in questioned costs related to draw downs occurring
      more than 90 days past the grant end date.

11.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has requested that OJP
      ensure that the current grant payment system include a control to
      prohibit negative award balances, such as total payments in excess of
      the net award amount.

12.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has remedied the
      $45,688 in questioned costs related to grants for which the drawdowns
      exceeded the total award amount.

13.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has developed and
      implemented policies and procedures to ensure that grantees are not
      allowed to draw down funds for unallowable expenditures obligated
      after the grant end date.

14.   Closed (COPS).

15.   Closed (COPS).

16.   Unresolved (OJP). OJP does not concur with our recommendation
      to ensure that grantees are not allowed to draw down funds more than


                                    - 84 –
90 days after the grant end date without requesting and receiving an
extension not to exceed 90 days. In Appendix V, pages 67 through
68, OJP provided the following statement in response to
recommendation 16:

     The Office of Justice Programs agrees, in part, with the
     recommendation as it relates to no-cost extensions of the
     liquidation period. Per OJP’s revised grant closeout policies
     and procedures (see Attachment 3), once the grant period
     ends, grantees may not initiate a request for a no-cost
     extension. No-cost extensions after the grant end date
     must be initiated by the Grant Manager. If a no-cost
     extension is not approved, grantees are required to
     complete closeout requirements within 90 days after the
     end date of the grant. In turn, the Grant Manager has
     30 days (i.e., within 120 days after the end date of a
     grant) to submit a standard or administrative closeout
     package to OC. Once the closeout process is initiated, a
     Grant Adjustment Notice (GAN) is processed to place a
     hold on any remaining funds that exceed total Federal
     expenditures as reported on the final Financial Status
     Report.

In its response, OJP states that it agrees “in part” with the
recommendation. The OJP response then details the no-cost extension
process. However, the OJP response does not address the
recommendation to ensure that grantees are not allowed to draw down
funds more than 90 days after the grant end date. Further, the
response does not provide any information as to why OJP only agrees
with the recommendation “in part.”

In its response, OJP also implies that as long as the grantee incurs
allowable expenditures, the grant funds may be draw down for an
indefinite period of time. However, this practice contradicts 28 C.F.R.
§66.50(b), which states that within 90 days after the expiration of the
grant, the grantee must submit the final request for payment
(drawdown). Additionally, the practice contradicts the OJP Financial
Guide, which requires grantees to request final payment for
reimbursement of expenditures incurred prior to the grant expiration
date in conjunction with the submission of the final financial report,
which according to 28 C.F.R. §66.50(b) is due within 90 days after the
grant end date.




                             - 85 –
      This recommendation can be resolved when OJP provides an
      acceptable corrective action plan that addresses the recommendation
      to ensure that grantees are not allowed to draw down funds more than
      90 days after the grant end date without requesting and receiving an
      extension.

17.   Unresolved (OJP). OJP does not concur with our recommendation to
      ensure that the current grant payment system includes a control to
      prohibit grantees from drawing down funds after the 90-day liquidation
      period. In Appendix V, pages 67 through 68, OJP provided the
      following statement in response to recommendation 17:

            The Office of Justice Programs agrees, in part, with the
            recommendation. As previously stated on page 1, OJP
            does not agree that grantees should be prohibited from
            drawing down funds after the 90-day liquidation period.
            As discussed during the exit conference with your staff,
            OJP is in the process of converting its accounting system
            and anticipates changing its current payment system.
            Therefore, OJP does not believe it would be cost effective
            to re-program the current payment system.

      As stated previously, the OIG believes that its interpretation of the
      C.F.R. that OJP’s practice of allowing grantees to draw down grant
      funds more than 90 days after the end date of the grant period
      violates federal regulations. Specifically, 28 C.F.R. §66.50(b), requires
      grantees to draw down grant funds for all allowable expenditures
      within 90 days after the expiration of the grant. Additionally, the OJP
      Financial Guide also requires grantees to request final payment for
      reimbursement of expenditures incurred prior to the grant expiration
      date in conjunction with the submission of the final financial report,
      which according to 28 C.F.R. §66.50(b) is due within 90 days after the
      grant end date.

      OJP did inform the OIG previously that it was in the process of
      converting its accounting system; however, according to OJP officials,
      the new accounting system will not be implemented until FY 2009. As
      a result, if OJP does not believe that it will be cost effective to
      re-program the current payment system, it needs to provide
      documentation supporting that re-programming the current payment
      system to include a control prohibiting grantees from drawing down
      funds after the 90-day liquidation period is not cost effective. Further,
      OJP needs to provide an alternative corrective action plan that details
      how OJP will prohibit grantees from drawing down funds after the end


                                    - 86 –
of 90-day liquidation period until the new accounting system is fully
implemented.

OJP also stated with regard to recommendation 17 that:

      The Grants Management System (GMS) Grants Closeout
      Module, once implemented, will enable OJP to
      automatically process a GAN to temporarily hold funds
      once the closeout process is initiated. If it is determined
      during the financial reconciliation of the grant that the
      grantee is entitled to draw down additional funds to cover
      allowable expenditures incurred during the grant period,
      the hold will be removed to allow the grantee to make a
      final drawdown.

The OIG agrees that OJP needs to include a control in the GMS Grants
Closeout Module, once implemented, which ensures that a temporary
hold on grant funds occurs on the 91st day after the end of the grant
period to prevent grantees from drawing down funds more than 90
days past the grant end date. If OJP determines during the financial
reconciliation that the grantee should be granted an extension of the
liquidation period, then the hold may be removed. However, OJP
needs to ensure that extensions to allow a final draw down based on
the financial reconciliation are granted on a case by case basis and
that the extension of the liquidation period does not exceed 180 days
past the grant end date since expired grants are required to be closed
with 180 days after the end of the grant.

OJP’s response to recommendation 17 also stated:

      The Office of Justice Programs does not believe that it is
      necessary for the grantee to submit a separate no-cost
      extension request to enable them to make their final
      drawdowns. By allowing funds to be drawn down to cover
      otherwise allowable expenditures incurred during the grant
      period, OJP has effectively acceded to the request for a
      late drawdown. Further, while 28 CFR Part 66 provides
      that a grantee may request an extension of time to draw
      down funds for allowable expenditures incurred during the
      grant period, it does not specify the format that must be
      used for such a request. Such decisions are clearly within
      the administrative discretion of the agency.




                              - 87 –
      The OIG does not disagree with the method used by the awarding
      agency in granting an extension of the period of time to draw downs.
      However, we believe that OJP needs to ensure that extensions to allow
      late draw downs are granted on a case by case basis and that any
      extension granted does not exceed 180 days past the grant end date
      since expired grants are required to be closed with 180 days after the
      end of the grant. Further, the basis for the extension and the approval
      of an extension to allow late draw downs should be fully documented.

      In its response, OJP stated that it is in the process of converting its
      accounting system and anticipates changing its current payment
      system. Therefore, OJP does not believe it would be cost effective to
      re-program the current payment system. However, the OJP needs to
      provide documentation supporting that re-programming the current
      payment system to include a control prohibiting grantees from drawing
      down funds after the 90-day liquidation period is not cost effective.
      Further, OJP needs to provide an alternative corrective action plan that
      details how OJP will prohibit grantees from drawing down funds after
      the end of 90-day liquidation period until the new accounting system is
      fully implemented.

      This recommendation can be resolved when OJP provides an
      acceptable corrective action plan that addresses the recommendation
      to ensure the current grant payment system includes a control to
      prohibit grantees from drawing down funds after the 90-day liquidation
      period.

18.   Unresolved (OJP). OJP does not concur with our recommendation to
      remedy the $290,055,575 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

            The Office of Justice Programs does not agree with the
            finding related to this recommendation. As previously
            stated on page 1, OJP does not agree that grantees should
            be prohibited from drawing down funds after the 90-day
            liquidation period. Obligations incurred during the grant
            period and liquidated within 90 days after the end date of
            the funding period are allowable expenditures. Since the
            obligations are appropriately incurred, it is consistent with
            the clear statutory intent of the appropriation for the
            grantee to be permitted to draw down grant funds to
            reimburse itself for costs incurred during the grant period.




                                    - 88 –
      This also relates to the issue of whether the C.F.R. allows grantees to
      draw down grant funds more than 90 days after the end date of the
      grant period. As noted above, we believe that 28 C.F.R. §66.50(b),
      requires grantees to draw down grant funds for all allowable
      expenditures within 90 days after the expiration of the grant.
      Additionally, the OJP Financial Guide also requires grantees to request
      final payment for reimbursement of expenditures incurred prior to the
      grant expiration date in conjunction with the submission of the final
      financial report, which according to 28 C.F.R. §66.50(b) is due within
      90 days after the grant end date.

      OJP’s response implies that there is no remedy for grantees to draw
      down funds after the 90-day liquidation period. As stated, previously,
      federal regulations allow for, at the request of the grantee, an
      extension of the 90-day liquidation period to draw down allowable
      costs. However, as stated on page 33 of the report, we found no
      evidence that the grantees requested extensions of the 90-day
      liquidation period for these grants and no extensions were provided.

      Further, OJP’s response fails to adequately address the $290,055,575
      in questioned costs related to drawdowns occurring more than 90 days
      past the grant end date or how it will remedy the questioned costs.

      In its response, OJP implies that as long as the grantee incurs
      allowable expenditures, the grant funds may be draw down for an
      indefinite period of time. However, this practice contradicts 28 C.F.R.
      §66.50(b), which states that within 90 days after the expiration of the
      grant, the grantee must submit the final request for payment
      (drawdown). Additionally, the practice contradicts the OJP Financial
      Guide, which requires grantees to request final payment for
      reimbursement of expenditures incurred prior to the grant expiration
      date in conjunction with the submission of the final financial report,
      which according to 28 C.F.R. §66.50(b) is due within 90 days after the
      grant end date.

      This recommendation can be resolved when OJP provides an
      acceptable corrective action plan that addresses the recommendation
      to remedy the $290,055,575 in questioned costs related to drawdowns
      occurring more than 90 days past the grant end date.

19.   Unresolved (OJP). OJP does not concur with our recommendation to
      ensure that the current grant payment system includes a control to
      prohibit negative award balances, e.g., total payments in excess of the



                                    - 89 –
      net award amount. In Appendix V, page 69, OJP provided the
      following statement in response to recommendation 19:

           The Office of Justice Programs does not agree with the
           finding related to this recommendation. The current grant
           payment system, the Phone Activated Paperless Request
           System (PAPRS), includes automated controls to ensure
           that the total funds paid do not exceed the award amount.
           However, there are a small number of grant records in the
           Integrated Financial Management Information System
           (IFMIS), OJP’s accounting system, that contain errors
           related to the conversion to IFMIS from the prior
           accounting system, ATOMIC. The reporting errors relate
           only to IFMIS, and OC and the Office of the Chief
           Information Officer are working with the IFMIS developer
           to resolve the issue.

      In its response, OJP states that it does not agree with the finding
      related to the recommendation. However, OJP’s response goes on to
      explain that there are in fact grant records that have negative award
      balances resulting from the conversion to IFMIS from the prior
      accounting systems. OJP’s response further details its plans for
      remedying the negative award balances by working with the IFMIS
      developer. Therefore, OJP’s response appears to concur with the
      finding related to the recommendation rather than disagree.

      OJP states also that the current grant payments system, PAPRS,
      already includes automated controls to ensure that the total funds paid
      do not exceed the award amount. Therefore, OJP needs to provide
      documentation supporting that the PAPRS system includes automated
      controls to ensure that the total funds paid do not exceed the award
      amount.

      This recommendation can be resolved when OJP provides an
      acceptable corrective action plan that addresses the recommendation
      to ensure that the current grant payment system includes a control to
      prohibit negative award balances.

20.   Unresolved (OJP). OJP does not concur with our recommendation to
      remedy the questioned costs totaling $442,108 related to grants for
      which the drawdowns exceeded the total award. In Appendix V,
      page 69, OJP provided the following statement in response to
      recommendation 20:



                                   - 90 –
            The Office of Justice Programs does not agree with the
            finding related to this recommendation. As stated in
            response to Recommendation 19 above, the errors noted
            relate to the conversion to IFMIS from the prior accounting
            system. To address the questioned costs, by January 31,
            2007, OJP will provide documentation that supports that
            the grantees noted were only able to draw down funds up
            to the award amount.

      In its response, OJP states that it does not agree with the finding
      related to this recommendation. However, OJP’s response goes on to
      explain that there are in fact grant records that have negative award
      balances resulting from the conversion to IFMIS from the prior
      accounting systems. OJP’s response further details its plans for
      remedying the questioned costs. Therefore, OJP’s response appears to
      concur with the finding related to the recommendation rather than
      disagree.

      This recommendation can be resolved when OJP provides an
      acceptable corrective action plan that addresses the recommendation
      to remedy the questioned costs totaling $442,108 related to grants for
      which the drawdowns exceeded the total award.

21.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has incorporated post-
      closeout monitoring of grants to its risk-based financial monitoring to
      detect unallowable expenditures obligated after the grant end date.

22.   Resolved (OJP). OJP agreed with our recommendation to ensure
      that grantees are not allowed to draw down excess funds for
      unsupported expenditures. However, in Appendix V, page 70, OJP
      provided the following statement in response to recommendation 22:

            The Office of Justice Programs agrees with this
            recommendation. However, it is important to note that it
            is not, and has never been, OJP’s practice to allow
            grantees to draw down any funds for unsupported
            expenditures (or report/claim expenditures that are
            unsupported on the Financial Status Reports). Grant
            recipients are required to comply with the applicable Office
            of Management and Budget Circulars and the OJP Financial
            Guide. As part of its fiduciary responsibility, OJP has a
            comprehensive financial monitoring program, which
            includes on-site, desk monitoring, and excess cash reviews


                                    - 91 –
           of grantee compliance with these requirements and other
           specific grant requirements. In addition, OC follows up
           and ensures resolution of all issues, including questioned
           costs identified during OIG grant audits and Office of
           Management and Budget Circular A-133 audits transmitted
           through the OIG.

      The OIG agrees with the statement that OJP is not in the practice of
      allowing grantees to draw down funds for unsupported expenditures.
      However, as stated on pages 34 through 35 of the report, based on a
      sample of 66 grants with drawdowns totaling $75.90 million that
      occurred more than 90 days past the grant end date, we found that
      the drawdowns included unsupported costs totaling $574,940. In our
      judgment, these unsupported costs occurred in part because of OJP’s
      failure to closeout expired grants timely. Therefore, OJP should ensure
      that financial reconciliation is conducted timely to identify any
      unsupported costs

      This recommendation can be closed when OJP provides documentation
      supporting that financial reconciliations will be conducted timely to
      identify any unsupported costs.

23.   Unresolved (OJP). OJP does not concur with our recommendation to
      immediately discontinue the practice of allowing grantees to drawdown
      excess funds for unsupported expenditures. In Appendix V, pages 70,
      OJP provided the following statement in response to recommendation
      23:

           The Office of Justice Programs does not agree with this
           recommendation. As stated in response to
           Recommendation 22, it is not, and has never been, OJP’s
           practice to allow grantees to draw down any funds for
           unsupported expenditures (or report/claim expenditures
           that are unsupported on the Financial Status Reports).

      As stated previously, the OIG agrees that it is not OJP’s practice to
      allow grantees to draw down funds for unsupported expenditures.
      However, as stated on pages 34 through 35 of the report, based on a
      sample of 66 grants with drawdowns totaling $75.90 million that
      occurred more than 90 days past the grant end date, we found that
      the drawdowns included unsupported costs totaling $574,940. In our
      judgment, these unsupported costs incurred in part because of OJP’s
      failure to closeout expired grants timely. Therefore, OJP should ensure



                                   - 92 –
      that financial reconciliation is conducted timely to identify any
      unsupported costs.

      This recommendation can be resolved when OJP provides an
      acceptable corrective action plan to ensure that financial
      reconciliations are conducted timely to identify any unsupported costs.

24.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented policies and procedures to ensure that grantees are not
      allowed to draw down funds more than 90 days after the grantee end
      date without requesting and receiving an extension.

25.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has requested that OJP
      add a control to their grant payment system prohibiting grantees from
      drawing down funds after the end of the 90-day liquidation period.

26.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has remedied the
      $37,279,986 in questioned costs related to drawdowns occurring more
      than 90 days past the grant end date.

27.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has requested that OJP
      ensure that the current grant payment system include a control to
      prohibit negative award balances, such as total payments in excess of
      the net award amount.

28.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has remedied the
      $41,247 in questioned costs related to one grant for which drawdowns
      exceeded the total award amount.

29.   Closed (OVW).

30.   Resolved (OVW). This recommendation can be closed when we
      receive supporting documentation that OVW has developed and
      implemented a strategy, including increasing desk-based monitoring of
      grants and conducting outreach to grantees to ensure that grantees
      are not allowed to draw down excess funds for unsupported
      expenditures.

31.   Closed (OVW).


                                     - 93 –
32.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has developed and
      implemented policies and procedures to ensure that all funds
      remaining on grants that have been expired for more than 90 days are
      deobligated and regranted, or returned to the general fund as
      necessary, within 180 days after the expiration of the grant.

33.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has deobligated and put
      to better use the $88,587,211 in remaining funds related to expired
      grants that are more than 90 days past the grant end date.

34.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has developed and
      implemented policies and procedures to ensure that all remaining
      grant funds are deobligated prior to closure.

35.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has deobligated and put
      to better use the $2,849,825 in remaining funds related to grants that
      were reported as closed.

36.   Resolved (COPS). This recommendation can be closed when we
      receive documentation supporting that COPS has remedied the
      $147,862 in questioned costs related to drawdowns occurring after the
      grant was reported as closed.

37.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has revised its grant
      closeout process to ensure that grants are closed within 180 days, and
      as necessary, remaining grant funds are deobligated timely.

38.   Unresolved (OJP). OJP does not concur with our recommendation to
      deobligate and put to better use the $61,082,443 in remaining funds
      related to expired grants that are more than 90 days past the grant
      end date. In Appendix V, pages 70 through 71, OJP provided the
      following statement in response to recommendation 38:

           The Office of Justice Programs does not agree with the
           finding related to this recommendation. As previously
           stated on page 1, OJP does not agree that grantees should
           be prohibited from drawing down funds after the 90 day
           liquidation period. Obligations incurred during the grant
           period and liquidated within 90 days after the end date of


                                   - 94 –
      the funding period are allowable expenditures. Since the
      obligations are appropriately incurred, it is consistent with
      the clear statutory intent of the appropriation for the
      grantee to be permitted to draw down grant funds to
      reimburse itself for costs incurred during the grant period.

      Based on OJP’s preliminary review of the questioned costs
      related to this finding, a substantial portion of the
      questioned costs relate to grants that have been closed or
      are in financial reconciliation phase of the closeout
      process. By January 31, 2007, OJP will provide a current
      status on the grants identified.

As stated previously, the OIG believes that OJP’s practice of allowing
grantees to draw down grant funds more than 90 days after the end
date of the grant period violates federal regulations. Specifically, 28
C.F.R. §66.50(b) requires grantees to draw down grant funds for all
allowable expenditures within 90 days after the expiration of the grant.
Additionally, the OJP Financial Guide requires grantees to request final
payment for reimbursement of expenditures incurred prior to the grant
expiration date in conjunction with the submission of the final financial
report which, according to 28 C.F.R. §66.50(b), is due within 90 days
after the grant end date. Therefore, any drawdown not made within
the 90-day liquidation period should be deobligated and put to better
use within 180 days after the grant end date since expired grants are
required to be closed with 180 days after the end of the grant.

Additionally, OJP’s response implies that there is no remedy for
grantee’s to draw down funds after the 90-day liquidation period. As
stated, previously federal regulations allow for, at the request of the
grantee, an extension of the 90-day liquidation period to draw down
allowable costs. However, OJP needs to ensure that extensions to
allow late draw downs are granted on a case by case basis and that
any extension granted does not exceed 180 days past the grant end
date since expired grants are required to be closed with 180 days after
the end of the grant. Further, the basis for the extension and the
approval of an extension to allow late draw downs should be fully
documented.

Further, OJP’s response fails to adequately address the $61,082,443 in
funds to be put to better use related to expired grants more than 90
days past the grant end date.




                              - 95 –
      In its response, OJP implies that as long as the grantee incurs
      allowable expenditures, the grant funds may be draw down for an
      indefinite period of time. However, this practice contradicts 28 C.F.R.
      §66.50(b), which states that within 90 days after the expiration of the
      grant, the grantee must submit the final request for payment
      (drawdown). Additionally, the practice contradicts the OJP Financial
      Guide, which requires grantees to request final payment for
      reimbursement of expenditures incurred prior to the grant expiration
      date in conjunction with the submission of the final financial report,
      which according to 28 C.F.R. §66.50(b) is due within 90 days after the
      grant end date. Therefore, any drawdown not made within the 90-day
      liquidation period should be deobligated and put to better use within
      180 days after the grant end date since expired grants are required to
      be closed with 180 days after the end of the grant.

      This recommendation can be resolved when OJP provides an
      acceptable corrective action plan that addresses the recommendation
      to deobligate and put to better use the $61,082,443 in remaining
      funds related to expired grants that are more than 90 days past the
      grant end date.

39.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has revised its current
      grant closeout policy statement to ensure that remaining grant funds
      are deobligated prior to closure.

40.   Resolved (OJP). This recommendation can be closed when we
      receive documentation supporting that OJP has deobligated and put to
      better use the $3,488,483 in remaining funds related to grants that
      were reported as closed.

41.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented policies and procedures, in coordination with OJP, to
      ensure that all funds remaining on grants are deobligated within
      180 days after the expiration of the grant and regranted, or returned
      to the general fund.

42.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that the $14,285,431 in remaining
      funds related to expired grants that are more than 90 days past the
      grant end date have been deobligated and put to better use.




                                   - 96 –
43.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that OVW has developed and
      implemented policies and procedures, in coordination with OJP, to
      ensure that remaining funds are deobligated prior to closure.

44.   Resolved (OVW). This recommendation can be closed when we
      receive documentation supporting that the $102,595 in remaining
      funds related to grants that were reported as closed have been
      deobligated and put to better use.




                                   - 97 –
